<html>
<title> - TESTIMONY OF SUBPOENAED WITNESSES ON THE DEPARTMENT OF VETERANS AFFAIRS' ALLEGED MISUSE OF RELOCATION PROGRAM AND INCENTIVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








    TESTIMONY OF SUBPOENAED WITNESSES ON THE DEPARTMENT OF VETERANS 
      AFFAIRS' ALLEGED MISUSE OF RELOCATION PROGRAM AND INCENTIVES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        MONDAY, NOVEMBER 2, 2015

                               __________

                           Serial No. 114-41

                               __________

       Printed for the use of the Committee on Veterans' Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
         
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-696                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, 
    American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






















                            C O N T E N T S

                              ----------                              

                        Monday, November 2, 2015

                                                                   Page

Testimony of Subpoenaed Witnesses on the Department of Veterans 
  Affairs' Alleged Misuse of Relocation Program and Incentives...     1

                           OPENING STATEMENTS

Jeff Miller, Chairman............................................     1
    Prepared Statement...........................................    40
Corrine Brown, Ranking Member....................................     3
    Prepared Statement...........................................    51

                               WITNESSES

Mr. Danny Pummill, Principal Deputy Under Secretary for Benefits, 
  VBA, U.S. Department of Veterans Affairs.......................     4

    Accompanied by:

        Ms. Diana Rubens, Director of the Philadelphia Regional 
            Office,

        Mr. Robert McKenrick, Director of the Los Angeles 
            Regional Office,

        Ms. Kimberly Graves, Director of the St. Paul Regional 
            Office,

        Mr. Antione Waller, Director of the Baltimore Regional 
            Office,

    And
        Ms. Linda Halliday, Deputy Inspector General for the VA's 
            Office of Inspector General
 
    TESTIMONY OF SUBPOENAED WITNESSES ON THE DEPARTMENT OF VETERANS 
      AFFAIRS' ALLEGED MISUSE OF RELOCATION PROGRAM AND INCENTIVES

                              ----------                              


                        Monday, November 2, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 7:28 p.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Roe, 
Benishek, Huelskamp, Coffman, Wenstrup, Walorski, Abraham, 
Zeldin, Costello, Radewagen, Bost, Brown, Takano, Brownley, 
Titus, Ruiz, Kuster, O'Rourke, and Walz.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Good evening, everybody. Thank you for being 
here at tonight's hearing to discuss, for the second time, the 
VA inspector general's final report entitled ``Inappropriate 
Use of Position and the Misuse of Relocation Program and 
Incentives.''
    We are holding this second hearing tonight because the 
witnesses that we had requested to appear before this committee 
at the hearing on the 21st of October chose not to attend or 
were blocked by the Department of Veterans Affairs from 
attending. Their failure to appear led us to unanimously vote 
on and issue subpoenas to compel their testimony, something we 
have never done before.
    The five individuals that we issued subpoenas to were Danny 
Pummill, Principal Deputy Under Secretary for Benefits; Ms. 
Diana Rubens, Director of the Philadelphia Regional Office; Ms. 
Kimberly Graves, Director of the St. Paul Regional Office; Mr. 
Robert McKenrick, Director of the Los Angeles Regional Office; 
Mr. Antione Waller, Director of the Baltimore Regional Office.
    As we learned at our last hearing, the IG's report lays out 
the alleged abuse of VA's relocation expense and permanent 
change of station programs, costing hundreds of thousands 
dollars of taxpayer money, and how Ms. Rubens and Ms. Graves 
apparently inappropriately used their positions of authority to 
put their own personal and financial benefit ahead of veterans, 
taxpayers, and their subordinates.
    As the saying goes, a picture is worth a thousand words. So 
let's start with a map, and let me describe in the simplest 
terms what tonight's hearing is all about. You can look at the 
screen up here.
    Initially, Ms. Graves and Mr. Waller discussed his 
potential transfer to Philadelphia. Those discussions are 
eventually shelved because Mr. McKenrick is transferred from 
the Philadelphia RO Director's job to become the Los Angeles RO 
Director. Then Ms. Rubens transfers from VA headquarters here 
in DC to fill the now-vacant Philly RO job and receives about 
$274,000 in relocation assistance.
    Mr. Waller is subsequently transferred to the St. Paul RO 
Director job to become the Baltimore RO Director. Ms. Graves 
then transfers from her position as the Eastern Area Director 
in Philadelphia to fill the now-vacant St. Paul RO Director job 
and receives about $129,000 in relocation assistance.
    Finally, both Ms. Rubens and Ms. Graves retained their SES-
level salaries despite assuming lower-responsibility jobs.
    It seems to me that Ms. Rubens' and Ms. Graves' use of the 
relocation expense program is an expensive and confusing waste 
of taxpayer money, given they both volunteered to take these 
positions. As my colleague Mr. Coffman pointed out at the first 
hearing on this report, their relocation expenses were 
exorbitantly more than even the highest-ranking military 
officials receive when they and their families are ordered to 
move.
    I am glad to see that VA has hit the pause button on this 
program. In my judgment, it ought to be scrapped altogether 
across the Federal Government.
    The IG report sheds light on VA's policy of providing 
relocation expenses in what I can only describe as gross and 
haphazard abuse of the program. It also details a scheme by 
which transferred SES employees received big pay raises and 
large incentives with very little connection to the relative 
responsibilities, complexities, and challenges associated with 
a new position.
    As I have said before, the report is damning. And I believe 
it is important to go over the facts and the findings of the 
report, as well as afford our witnesses, who are here tonight, 
those that are at the center of the report, to have an 
opportunity to present their accounts of how events transpired. 
This is important both for our constitutional oversight duty 
and the Department's transparency with the American people.
    After issuing the subpoena on October 21, I received 
requests from representatives of some of the witnesses to 
postpone the hearing or, at the very least, excuse Ms. Rubens 
and Ms. Graves from appearing today. I want to make it clear 
that requiring these individuals, or any individual, to appear 
before us today is not done to embarrass them, as some may have 
asserted.
    They are here before us today because they are the subjects 
of this damning report, which was completed at this committee's 
request. They are two of the individuals who allegedly created 
openings in Philadelphia and St. Paul for their own transfers 
to these locations and then also benefited significantly from 
VA's relocation program to move to the openings that they 
allegedly generated.
    If this is not what happened, then I believe a public 
hearing is an ideal place for them to tell us what actually did 
happen.
    This hearing is not a joke. The findings of this report 
provide a roadmap for further inquiry and reform. My suspicion 
is that this kind of behavior is rampant not only throughout 
the Department of Veterans Affairs but also the rest of the 
Federal Government. VA must take aggressive steps to rout it 
out, to hold employees accountable when warranted, and be 
better stewards of taxpayer dollars.
    As I have said before, if VA put half the effort into 
pushing for true accountability or protecting their employees 
who come forth as whistleblowers as they have for the 
individuals investigated in this IG report, then I honestly 
think the Department would be in a much better place.
    VA exists for veterans, not for itself or the unjust 
enrichment of its senior employees. That is why we take this IG 
report so seriously, that is why we are here tonight to ask the 
right questions, and that is why the public and America's 
veterans have a right to hear from these witnesses.
    With that, I recognize the ranking member, Ms. Brown, for 
any comments she may have.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

       OPENING STATEMENT OF RANKING MEMBER CORRINE BROWN

    Ms. Brown. Thank you, Mr. Chairman.
    The hearing this evening is a followup to the committee 
hearing nearly 2 weeks ago regarding the September VA inspector 
general's report on inappropriate use of positions and misuse 
of relocation programs and incentives.
    The IG report made a number of serious charges. As part of 
our oversight efforts, the committee is looking into the use of 
relocation incentives as well as looking into the culture of 
the Veterans Benefit Administration.
    It is important that we get a better understanding of how 
VA uses relocation incentives to fill important positions, 
especially when we see a VA where many important leadership 
positions go unfilled. We must determine whether these programs 
work and are they working as intended. If they are not, then we 
must work together to make sure that they are used as a 
recruitment and retention tool and not simply a means to reward 
specific employees when the usual tools of bonuses and pay 
increases are not available.
    To further our efforts in this area, the chairman joined me 
in requesting that GAO look into the Appraised Value Offer, or 
AVO, programs, not only at the VA but across the government. I 
am looking forward to their report in the very near future.
    The allegations in the IG report are serious and highlight 
a culture of cronyism within the VA Benefit Administration. I 
hope our witnesses will be able to help us to get to the bottom 
of this.
    We all respect the rights of any of our witnesses to avail 
themselves to any constitutional rights they may have. But, at 
the end of the day, we simply must find answers and make the 
reforms and changes we need to make to ensure that veterans 
come first.
    With that, I yield back the balance of my time.

    [The prepared statement of Ranking Member Corrine Brown 
appears in the Appendix]

    The Chairman. Thank you very much, Ms. Brown.
    Our first and only panel we have has the following 
individuals already seated at the table:

    Mr. Danny Pummill, Principal Deputy Under Secretary for 
  Benefits; Accompanied by: Ms. Diana Rubens, Director of the 
Philadelphia Regional Office; Mr. Robert McKenrick, Director of 
the Los Angeles Regional Office; Ms. Kimberly Graves, Director 
 of the St. Paul Regional Office; Mr. Antione Waller, Director 
   of the Baltimore Regional Office; and Ms. Linda Halliday, 
   Deputy Inspector General for the VA's Office of Inspector 
                            General.

                   STATEMENT OF DANNY PUMMILL

    I also invited former Under Secretary Hickey to testify 
tonight as a private citizen, as her activities were heavily 
featured in the report. However, she did not respond to my 
request.
    I would ask the witnesses to please stand and raise your 
right hand so that we can swear you in for your testimony.
    Do you solemnly swear, under penalty of perjury, that the 
testimony you are about to provide is the truth, the whole 
truth, and nothing but the truth?
    Thank you. You may be seated.
    And let the report reflect that all witnesses answered in 
the affirmative.
    Before we start, I want to read rule 3(e) of the 
committee's rules, whereby it states, ``Each witness who is to 
appear before the committee or a subcommittee shall file with 
the clerk of the committee at least 48 hours in advance of his 
or her appearance or at such other time as designated by the 
chairman after consultation with the ranking member a written 
statement of his or her proposed testimony.''
    We have been trying for over a week to get testimony from 
the Department. We were unable to receive that. I was told we 
would have it by Friday for Mr. Pummill to give us. Then, when 
I arrived in Washington today, I was told we would receive it 
by 2:30. Then I received a, really, two-sentence summary and 
was told this committee would receive nothing else from the 
Department. So I am going to read it to you.
    ``In summary, Danny Pummill's oral statement will cover 
VA's actions to date in response to the IG report. He will 
discuss VA's accomplishments, the elimination of the AVO 
Program across VA, and the ongoing review of other relocation 
incentives to ensure appropriate controls.''
    Mr. Pummill, I know you are not the one that made this 
decision, and I am sure whoever that person is is probably 
watching or listening, but it is not acceptable. I am sick and 
tired of asking for information from the Department and being 
given a runaround.
    I mean, I was asked if you could provide the testimony, and 
I said, of course you can provide testimony if you provide a 
written statement prior to. And the reason for that is to allow 
members of this committee to read that testimony and be able to 
formulate questions that are important to that testimony. And 
we don't have that.
    And so, because of that, I am not going to recognize you 
for an opening statement, but I will be asking some questions 
of you in the next few minutes.
    Ms. Rubens, the IG report concluded that you used your 
position of authority for personal and financial benefit. What 
evidence do you have to dispute that conclusion?
    Ms. Rubens. Sir, I've been advised by counsel not to answer 
that question to protect my rights under the Fifth Amendment to 
the Constitution.
    The Chairman. Let the record reflect that Ms. Rubens has 
asserted her Fifth Amendment right against self-incrimination.
    Ms. Rubens, let me be very clear. Are you declining to 
answer the committee's questions solely on the grounds that you 
believe the answer will incriminate you?
    Ms. Rubens. Sir, if the advice of counsel has been to not 
answer anything that will ensure I protect my rights under the 
Fifth Amendment, I will continue to assert that.
    The Chairman. Ms. Rubens, was Mr. McKenrick lying when he 
said that he told you that he would only move from Philadelphia 
to Los Angeles if it was a direct reassignment?
    Ms. Rubens. Sir, I've been advised by my counsel not to 
answer that question to protect my rights under the Fifth 
Amendment to the Constitution.
    The Chairman. Let the record reflect that Ms. Rubens has 
asserted her Fifth Amendment right against self-incrimination.
    Ms. Rubens, please let me be very clear. Are you declining 
to answer the questions that this committee puts forth solely 
on the grounds that you believe that the answer will 
incriminate you?
    Ms. Rubens. Sir, I've been advised by counsel not to answer 
any questions that might incriminate me.
    The Chairman. The report cites, Ms. Rubens, an email from 
former Under Secretary Hickey to you which said she was, quote, 
``all in to help and make it happen,'' close quote, as in move 
you to Philadelphia.
    What was Ms. Hickey's role in your transfer and Mr. 
McKenrick's transfer?
    Ms. Rubens. Sir, I've been advised by counsel not to answer 
that question to protect my rights under the Fifth Amendment to 
the Constitution.
    The Chairman. Let the record reflect that Ms. Rubens has 
asserted her Fifth Amendment right against self-incrimination.
    Ms. Rubens, please let me be very clear. Are you declining 
to answer the committee's question solely on the ground that 
you believe the answer will incriminate you?
    Ms. Rubens. Sir, I've been advised that any question that 
might incriminate me I should, in fact, assert my Fifth 
Amendment rights.
    The Chairman. Ms. Rubens, why didn't you post the 
Philadelphia job? Were there any other candidates other than 
you that were considered for the job?
    Ms. Rubens. Chairman Miller, I've been advised by counsel 
not to answer that question to protect my rights under the 
Fifth Amendment to the Constitution.
    The Chairman. Let the record reflect that Ms. Rubens has 
asserted her Fifth Amendment right against self-incrimination.
    And, Ms. Rubens, again, let me be very clear. Are you 
declining to answer the committee's question solely on the 
ground that you believe the answer will incriminate you?
    Ms. Rubens. Sir, questions that might incriminate me, in 
fact, I've been advised by my counsel to assert my Fifth 
Amendment rights.
    The Chairman. Ms. Rubens, according to the IG report, the 
hiring effort for the vacant RO Director position in Los 
Angeles was suspended at the direction of your office in the 
midst of the hiring process. Why did you, seemingly out of the 
blue, stop the effort to fill this position?
    Ms. Rubens. Mr. Chairman, I've been advised by counsel not 
to answer that question to protect my rights under the Fifth 
Amendment to the Constitution.
    The Chairman. Let the record reflect that Ms. Rubens again 
has asserted her Fifth Amendment right against self-
incrimination.
    And let me be clear. Ms. Rubens, you are declining to 
answer the committee's question solely on the ground that you 
believe the answer will incriminate you?
    Ms. Rubens. Sir, I've been advised by counsel not to answer 
questions to ensure I protect my rights to the Fifth Amendment 
under the Constitution.
    The Chairman. Ms. Rubens, are you refusing to answer any 
questions put before you this evening?
    Ms. Rubens. No, sir.
    The Chairman. Ms. Graves, the IG report concluded that you 
used your position of authority for personal and financial 
benefit. What evidence do you have that disputes that 
conclusion?
    Mr. Graves. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer that question.
    The Chairman. Let the record reflect that Ms. Graves has 
asserted her Fifth Amendment right against self-incrimination.
    So, Ms. Graves, let me be clear with you. Are you declining 
to answer the committee's question solely on the grounds that 
you believe the answer will incriminate you?
    Mr. Graves. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer that question.
    The Chairman. Ms. Graves, with as many management 
challenges that have existed at the Baltimore office and your 
years of experience in VBA, why didn't you volunteer for the 
position?
    Mr. Graves. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer that question.
    The Chairman. Let the record reflect that Ms. Graves has 
asserted her Fifth Amendment right against self-incrimination.
    Ms. Graves, please let me be clear again. Are you declining 
to answer the committee's question solely on the ground that 
you believe the answer will incriminate you?
    Mr. Graves. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right and decline to answer that question.
    The Chairman. Ms. Graves, at what point did you put your 
name in for the St. Paul opening, the same opening that the IG 
concluded that you helped create?
    Mr. Graves. Mr. Chairman, upon advice of counsel, I 
respectfully exercise my Fifth Amendment right and decline to 
answer that question.
    The Chairman. Let the record reflect that Ms. Graves has 
asserted her Fifth Amendment right against self-incrimination.
    And, Ms. Graves, again, let us be clear. Are you declining 
to answer the committee's question solely on the grounds that 
you believe the answer will incriminate you?
    Ms. Graves. Upon advice of counsel, I respectfully exercise 
my Fifth Amendment right, and I decline to answer that 
question, sir.
    The Chairman. Ms. Graves, whose decision was it not to 
advertise the open position at the Philadelphia Regional 
Office?
    Mr. Graves. Mr. Chairman, upon advice of counsel, I 
respectfully exercise my Fifth Amendment right, and I decline 
to answer that question.
    The Chairman. Let the record reflect again that Ms. Graves 
has asserted her Fifth Amendment right against self-
incrimination.
    Ms. Graves, please let me be very clear. Are you declining 
to answer the committee's question solely on the grounds that 
you believe the answer will incriminate you?
    Mr. Graves. Mr. Chairman, upon advice of counsel, I 
respectfully exercise my Fifth Amendment right under the 
Constitution and decline to answer that question.
    The Chairman. Thank you.
    Mr. McKenrick, since this report came out and prior to this 
hearing, have any senior leaders at VA reached out to you 
regarding the statements you made that were included in the 
report?
    Mr. McKenrick. Sir, no senior leaders have talked to me 
about the statements that were made. It's my understanding that 
it's under investigation.
    The Chairman. Did any VA officials instruct you as to what 
to say during this hearing?
    Mr. McKenrick. No, they did not, Chairman.
    The Chairman. The IG concluded in its report that you were 
essentially forced or coerced to move to the Los Angeles RO 
from the Philadelphia RO. Is this correct?
    Mr. McKenrick. I was not forced or coerced, sir. I was 
direct reassigned.
    The Chairman. And what does ``direct reassigned'' mean?
    Mr. McKenrick. Direct reassignment means that the agency 
has determined, in the best interest of the agency, that, 
arguably, I was the right person at the right time to take that 
assignment. It went through a vetting process, Chairman.
    The Chairman. And had you not taken that assignment, what 
would have occurred?
    Mr. McKenrick. I don't know, Chairman.
    The Chairman. Ms. Rubens stated in her interview with the 
IG that you contacted her on your own and you volunteered to go 
to Los Angeles and that she was dumbstruck that you called her.
    Is Ms. Rubens' statement an accurate description of your 
initial contact that resulted in your transfer to Los Angeles?
    Mr. McKenrick. She is correct in that I did contact her and 
we did discuss the reassignment and I was interested in the 
West Coast. That was based on my participation in ERB panels, 
which are hiring panels. I participated in San Diego as well as 
Los Angeles.
    The Chairman. Mr. McKenrick, are you familiar with the 
penalties for perjury found in Title 18 of the U.S. Code?
    Mr. McKenrick. I am, Chairman.
    The Chairman. You stated that ``I would have to be 
reassigned, meaning I'm not jumping up and down saying, 'Send 
me to L.A., send me to L.A.''' You also said, ``It's not a 
volunteer, in my mind. I am not volunteering.''
    You said that under oath to the inspector general, and yet 
today it appears you are telling me something different. Do you 
wish to revise your statement to this committee?
    Mr. McKenrick. In that statement, Chairman, it was a 
process of learning about the stations on the West Coast, the 
opportunities. I had several dialogues with several individuals 
about the challenges of those stations. I did express an 
interest by making that phone call and several other phone 
calls to inquire.
    The final discussions were between myself and the chief of 
staff, then-VA chief of staff. And it was through that process 
and the offers that were made there that the final decision was 
made.
    The Chairman. Mr. Waller, my time has run out, but I need 
to ask you very quickly, did you like your job at the St. Paul 
RO?
    Mr. Waller. Yes, Mr. Chairman.
    The Chairman. How about your family? Did they want you to 
move from St. Paul?
    Mr. Waller. Not at the time that we had these discussions, 
no, they did not.
    The Chairman. Did they like living in St. Paul?
    Mr. Waller. We enjoyed living there, yes.
    The Chairman. Do you feel that you were pressured or 
manipulated to leave that position in St. Paul?
    Mr. Waller. I do believe there was pressure for me to take 
another assignment.
    The Chairman. And by whom?
    Mr. Waller. Well, it started with, you know, telephone 
conversations with Ms. Graves as well as Ms. McCoy and Ms. 
Rubens as well.
    The Chairman. Okay.
    Ms. Brown.
    Ms. Brown. Thank you.
    I am going to about back to Mr. McKenrick.
    You're presently at the Los Angeles VA facility? Where are 
you presently?
    Mr. McKenrick. I am.
    Ms. Brown. Yes. I have visited that facility. You are the 
top person at that particular position?
    Mr. McKenrick. For the Department of Veterans Affairs, 
Congresswoman Brown, I am the Director of the Los Angeles 
Regional Office in that office.
    Ms. Brown. Okay. That is a very challenging position, but, 
also, I would think, a very interesting position, in that you 
have an opportunity to work with a very challenging community 
that needs a lot of help and assistance.
    After doing your research, did you decide that you wanted 
to take that position?
    Mr. McKenrick. I found that the position was very 
challenging, and I was confused in the process of what was 
being offered for me to go. And my position was that, if I was 
to go, I would have to be direct reassigned and that the agency 
would tell me that I was the one that had to go, the best 
candidate to go at that time, there was no one else that could 
do that mission.
    I was committed to the mission and I am committed to the 
mission of the VA. I have struggled with a direct reassignment 
in other Federal agency in the past. A senior leader asked me--
basically said, ``We're going to direct reassign you to another 
position in another city.'' And I said, ``What are the 
options?'' and I was told none, and ``What is the 
alternative?'' and I was told, ``You're fired.''
    Ms. Brown. But that did not happen with the VA.
    Mr. McKenrick. That did not happen here, so I literally 
reached out to find out as much information as I could. And I 
was very glad that the agency engaged me in a thorough process, 
to include many different levels. And, frankly, there were 
times when I was very committed to it, but I had to take family 
into consideration and my children and not being near them.
    And I went through the process, and, in the end, my 
decision was, after talking all the way up the chain, that if I 
was going to go, I would have to be direct reassigned, meaning 
there were no other senior leader in the works that would take 
this position. There had already been two panels that had not 
produced a successful candidate from the outside, Chairman 
Brown--or, sorry, Congresswoman Brown.
    Ms. Brown. Yes, I like that word, but I am the ranking 
member.
    Mr. McKenrick. I'm sure I'll hear about that when the 
chairman gets back to me.
    Ms. Brown. Let's go to Mr. Waller.
    You are now at the--you are at Baltimore?
    Mr. Waller. Yes, Congresswoman.
    Ms. Brown. And you did not want to go to Baltimore?
    Mr. Waller. Well, at the time that I was approached about 
Baltimore Regional Office, I was not in a position or willing 
to accept voluntarily going to that regional office.
    Ms. Brown. So what happened? You got reassigned?
    Mr. Waller. Yes.
    Ms. Brown. Well, did you get compensation and the other--
house relocation and all of that?
    Mr. Waller. There were the benefits of a AVO, appraised 
value offer, as well as a relocation incentive to go to 
Baltimore, along with a salary increase as well.
    Ms. Brown. Did you have additional responsibilities in that 
reassignment?
    Mr. Waller. I'm not sure I understand your question.
    Ms. Brown. Well, was it a lateral or was it a promotion?
    Mr. Waller. It was a lateral, as far as I was concerned. It 
was the same capacity as the director of a regional office, so 
I considered it to be a lateral transfer.
    Ms. Brown. I am asking, did you get additional 
reimbursement funds for it? It was just a lateral?
    Mr. Waller. Right. Yes, ma'am, it was just a lateral 
transfer.
    Ms. Brown. Let me ask a question to the IG.
    You have heard the testimony. Is that contrary to your 
report?
    Ms. Halliday. VA classified the positions based on the pay 
bands that VA uses. St. Paul is a Pay Band 2 position, which is 
higher than Baltimore, which is a Pay Band 3 position. So 
Baltimore would essentially have lesser responsibilities.
    Ms. Brown. Than where?
    Ms. Halliday. Than the St. Paul, Minnesota, VARO, where Mr. 
Waller originally was.
    Ms. Brown. Well, that is interesting. Maybe VA needs to go 
back and reevaluate. Everything I know about Baltimore, it 
would definitely be more challenging than the other location, 
from actually physically going to Baltimore and visiting the VA 
facility.
    What about Mr. McKenrick's testimony? Because it seemed to 
be contradictory to your report.
    Ms. Halliday. Mr. McKenrick, I believe, said all along that 
he would not go out to L.A. without a directed reassignment. I 
think it is consistent with our report, because he didn't go to 
L.A. because he wanted to go out there. And I think that's the 
testimony that we have that we provided to the committee.
    And I think that when you don't take a directed management 
move, one option is you can be let go.
    Ms. Brown. That is one option, but the other option is that 
he was the best, he felt, qualified person for that particular 
position.
    Ms. Halliday. I can't answer whether he was the best 
qualified for that position or not. There were a number of 
candidates that applied for the L.A. position. I think it was 
over 100 candidates when Ms. Rubens' office canceled that last 
hiring action.
    The Chairman. Would the gentlelady----
    Ms. Halliday. So I don't know. I guess it's VBA's opinion, 
not mine. I don't know Mr. McKenrick.
    Ms. Brown. Yes, sir. I will yield.
    The Chairman. If you could just freeze the clock for just a 
minute. I just want to go back.
    Ms. Halliday, on page 34 in the transcript, a question is 
asked of Mr. McKenrick, did he want to go to L.A. or did he 
want to stay. Basically, it says, ``I guess your first 
discussion with Ms. Rubens on this, did you prefer to stay in 
Philadelphia or did you want to go to L.A.?'' Mr. McKenrick 
says, ``Stay in Philadelphia.''
    I yield back.
    Ms. Brown. Would you like to respond to that?
    Mr. McKenrick. I can, Congresswoman Brown.
    The process is a learning process. It's not static. It's 
getting information from different individuals and engaging 
them and saying, ``I want to learn more about it.'' It is 
interesting. I know the position is open. I was part of the 
last panel. It is interesting to me. Does someone say, do you 
absolutely want to go? Well, I want to learn more about it. 
Yes, I'm interested in it.
    And, then, as the process goes and you learn different 
things and you talk to family and you learn about the 
challenges, it's an interactive process that allows you to say, 
well, no, I'm not going to be able to do this unless I'm direct 
reassigned. Because you are in the mission. You're part of a 
team. You care about what happens in VA. And if the agency has 
determined above me that I'm the right person at the right time 
to go, then, yes, I'm willing to do my part to step into it and 
continue.
    As an Army Reservist, they didn't say, do you want to go to 
Iraq the first or second time. You stepped into what your job 
was because you were the right unit or the right members to go. 
And we did that.
    Ms. Brown. One last comment. I understand it was 100 
applicants, and you turned out to be the best person, the VA 
felt, for the position. It seems to me that is a compliment.
    Mr. McKenrick. I can't answer to what VA thought above me, 
ma'am.
    Ms. Brown. All right.
    I am going to yield back the balance of my time.
    The Chairman. Thank you.
    Mr. Lamborn, you are recognized for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. And, once again, 
thank you for your leadership in bringing these subjects up for 
hearing.
    Mr. Pummill, I would like to ask you a few questions.
    Both Secretary Gibson, in his letter to the chairman on 
October 20, and Chief of Staff Nabors, in response to the IG's 
recommendations, committed to completing proposed 
accountability actions by October 31, Saturday.
    Now that this deadline has passed, what, if any, 
accountability actions have been taken?
    Mr. Pummill. Congressman, besides the freezing of the AVO 
Program, a complete relook of all incentives and moves inside 
of not just VBA but VA, the dep sec, who is responsible for all 
SES, I guess you would say, punishment and enforcement inside 
of VA, delivered proposed actions to both Ms. Graves and Ms. 
Rubens on October--I believe it was on October 31.
    They are under the new process, the Accountability Act. 
They are under the appeal timeframe right now. As soon as that 
appeal timeframe--I believe the first part is 7 days, and then 
there's an additional 5 days to the Merit Board--are complete, 
then he will release what that proposed punishment is.
    Mr. Lamborn. Okay. Thank you.
    Now, at the committee's hearing in April, you stated that 
Ms. Rubens received the AVO Program benefit because the 
position was ``tough to fill,'' quote/unquote. Is that correct? 
Were those your words?
    Mr. Pummill. Yes, that's correct, Congressman.
    Mr. Lamborn. And, as we know, OPM policies restrict the use 
of relocation incentives for hard-to-fill jobs. However, at the 
committee's hearing last month, the inspector general concluded 
that the position was never advertised.
    So my question is, how was Ms. Rubens eligible for these 
incentives if the VA never tried to fill it?
    Mr. Pummill. The office in Philly is one of our larger 
regional offices. It's a very complex office. It has multiple 
lines of business. It's not just a claims office. They have a 
pension center there, an insurance center. There's a lot going 
on. And we've had a history of problems in that office that 
we've been trying to work through.
    We wanted somebody in that office that could not only do 
the claims but the other lines of businesses, but could also 
work with the local legislators, elected officials in the area, 
the unions--there was a union issue there--the employees, and 
the veterans and the veterans service organizations.
    We felt that Ms. Rubens had all those attributes. She was 
probably our most experienced person in claims in all of VBA. I 
think I testified that that was our roughest, toughest RO at 
the time, and we wanted our best person there.
    Mr. Lamborn. So you didn't advertise the position, you 
didn't interview anyone else. You just determined she was the 
one and that it was tough to fill and needed the incentives all 
as one decision? Is----
    Mr. Pummill. Yes, Congressman.
    Mr. Lamborn [continuing]. That correct?
    Mr. Pummill. Yes.
    Mr. Lamborn. Okay.
    Well, let's talk about Baltimore. We were told that 131 
people applied for the Baltimore RO job when that one was 
advertised. Why were none of them considered for the position?
    Mr. Pummill. Same set of circumstances, Congressman. When 
we're looking at filling an RO, every RO is different. Every RO 
has their own set of problems. Antione, in Minnesota, had done 
a very, very good job. He was very aggressive with handling 
union problems. He was good at working with the legislators and 
working with the local VSOs.
    Baltimore had a history of problem after problem after 
problem, and nothing we seemed to do seemed to be able to fix 
it. Moving Antione there was the right call. He's dramatically 
improved production in almost every aspect in Baltimore since 
he's been there.
    It's kind of like a--if you want to replace an infantry 
commander at Fort Riley, Kansas, you don't go out and look at a 
bunch of applicants. You look and say, who's my best infantry 
colonel or general promotable that I can put in that position? 
Antione was the person in that case.
    Mr. Lamborn. If you could go back in time, would you still 
have signed off on all the moves highlighted in the inspector 
general's report?
    Mr. Pummill. If I could go back in time, I still would have 
made all the moves, yes.
    Mr. Lamborn. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Pummill, before I recognize Mr. Takano, 
is there any reason why you cannot inform this committee of 
what the proposed actions are?
    Mr. Pummill. I'm sorry, Congressman? I didn't----
    The Chairman. Is there any reason that you cannot inform 
this committee as to what the proposed actions are?
    Mr. Pummill. I was told by our legal advisors right before 
this hearing that I can't give the proposed action until they 
have a chance to go through the first part of the appeal 
process, but just to let you know that we are using the 
expedited new act to impose those punishments.
    The Chairman. Okay. Thank you.
    Ms. Rubens, Ms. Graves, I apologize. Before I recognize Mr. 
Takano, I wanted to, again, reassert to the committee that you 
both have asserted your Fifth Amendment right against self-
incrimination numerous times. Both of you have done it as the 
basis for the refusal to answer the questions that have been 
posed to you because of your respective subpoenas.
    Ms. Rubens and Ms. Graves, considering your assertions of 
privilege, the committee intends to end your questioning this 
evening. But be advised that this hearing will be held open to 
allow the committee to evaluate the validity of your Fifth 
Amendment assertions, and you both will be subject to recall in 
the future should the committee decide to question you in the 
future.
    I ask unanimous consent that Ms. Rubens and Ms. Graves be 
excused from the hearing today, subject to a recall.
    Without objection, so ordered.
    Thank you very much. And we will also remove your nametags 
from your seats because you did appear. Thank you very much.
    Mr. Takano, you are recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Mr. McKenrick, you sat on a panel responsible for 
identifying and interviewing applicants for the L.A. VARO 
position. Why weren't one of the best-qualified applicants 
selected after the second job announcement?
    Mr. McKenrick. I can't answer that. After the panel 
screened the resumes, came up with qualified and best 
qualified, I believe, and we chose the individuals for the 
interview, we interviewed those individuals, and then we 
selected the ones that we chose the strongest to pass forward. 
I am not even sure where they went once we were done with our 
part. The Executive Management Office would handle the packages 
from there.
    Mr. Takano. So you don't know why anyone was selected in 
that panel?
    Mr. McKenrick. I do not know whether they survived the 
process above us or they simply weren't interested in the end 
after they found out all the facts. I don't know.
    Mr. Takano. Do you know why the position was advertised for 
a third time?
    Mr. McKenrick. I assume because no one accepted it or was 
appointed in a prior panel.
    Mr. Takano. But, as one of the panel members, you don't 
have any----
    Mr. McKenrick. We move on to other panels. We have no 
longevity with the process, Congressman.
    Mr. Takano. All right. Thank you.
    During the course of your career in the Federal Government, 
did you ever negotiate salary, relocation incentives, or PCS in 
relation to prior relocations?
    Mr. McKenrick. I have not. Salaries with individuals at a 
lower level in the GS scale, I have discussed that with them, 
but I was not the final negotiator.
    Mr. Takano. Were you aware that if you had volunteered for 
the L.A. VARO position that you would not be eligible for the 
incentives or benefits?
    Mr. McKenrick. I did not know that. I think you are 
entitled to travel and other incentives to go out and take the 
assignment.
    Mr. Takano. But this had no bearing on whether or not you 
were maybe looking to be directed? I mean----
    Mr. McKenrick. In my informational process of learning 
about the stations on the West Coast--and I believe, at one 
time, all three stations, Oakland, San Diego, and L.A., were 
open--and learning about the challenges of the different 
stations in the West Coast versus what I know to be the East 
Coast in the VA, I was interested in all that, and I did show 
interest in it. It was appropriate for people to ask me the 
questions they did, from my point of view. As a senior leader, 
I would have followed up on those leads, as well.
    And, as I went through the process, it was clear to me that 
it would be very challenging for me. And I had said I would 
only go if direct reassigned.
    Mr. Takano. But you were not aware--but that decision was 
not related to an awareness of eligibility for benefits or 
incentives, you know, related to whether or not you volunteered 
or were directed?
    Mr. McKenrick. No, I had yet to work out the final details 
on what those would be. That was not part of what I was driving 
to when I said direct reassigned. It was, am I the best-
qualified candidate? If you are going out again, you are 
obviously not finding anyone out there that's meeting the 
criteria.
    And, as General Hickey had said, Under Secretary Hickey, I 
was all in, and I am all in. I want this agency to succeed and 
to serve the veterans.
    Mr. Takano. Were you aware that a management-directed 
reassignment was, according to Ms. Hickey, quote, ``the common 
process that CSEMO does,'' end quote?
    Mr. McKenrick. I'm not aware of what that means within the 
VA or other agencies, Chairman.
    Mr. Takano. Okay. But when you completed other relocations 
with the Federal Government, were interviews, relocations 
management-directed? I think you did answer a question like 
this before.
    Mr. McKenrick. One was alluded to that was a management-
directed reassignment. I have moved with other offices that 
were not.
    Mr. Takano. Thank you.
    Mr. Waller, when did you speak with Mr. Pummill about your 
reassignment to Baltimore?
    Mr. Waller. The date?
    Mr. Takano. Yes, the timeframe.
    Mr. Waller. Congressman, I'm not sure of that date. 
Probably sometime in the month of April 2014.
    Mr. Takano. Was it before or after you agreed to the 
relocation to Baltimore?
    Mr. Waller. Well, it had to do with a number of discussions 
that were leading up to my accepting the opportunity to go to 
Baltimore under reassignment.
    Mr. Takano. What did you discuss?
    Mr. Waller. Well, we discussed some of the incentives that 
were being offered as far as my relocation that was going to be 
important for me to accept in order to take on the new 
assignment of the Baltimore Regional Office.
    Mr. Takano. Mr. Chairman, my time is up. I yield back.
    The Chairman. Thank you, Mr. Takano.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    A question for Mr. McKenrick.
    Why would you not go to L.A. unless you were direct 
reassigned?
    Mr. McKenrick. The challenge for me, I want to serve, and I 
am committed to the people out there and the people in the 
community, as well as the regional office. That's my 
assignment. And I will always raise my hand if the agency says, 
``We can't find anyone.''
    My challenge is leaving my children back here in the 
Philadelphia area and the cost of living. I itemized that in my 
rebuttal to the chief of staff, that it was--I would have to go 
through and find the numbers for you, but I think 39 percent in 
housing; cost of living, 10 percent; 9-percent increase in 
health and food and other things. The cost of living was much 
more expensive in California.
    And the regional office is located in Wilshire Boulevard, 
just west of Hollywood, and it's a very expensive part of the 
city. You don't have to live there, but you can commute for 
hours on end every day, just like Washington.
    Mr. Bilirakis. So you definitely had reservations.
    Mr. McKenrick. Could you say that again, sir? I can't----
    Mr. Bilirakis. You definitely had reservations.
    Mr. McKenrick. I did have reservations, yes. But when the 
decision was made and I was direct reassigned, I'm all in. 
That's the mission you receive, you soldier up, and you march 
on.
    Mr. Bilirakis. Thank you, sir.
    Ms. Halliday, was VA using the appraised value program 
inappropriately and too frequently, in your opinion? Or are 
existing OPM guidelines too broad and leave too much discretion 
to an agency?
    Ms. Halliday. The sample is really too small for the number 
of people that received the AVO benefit within VBA to give you 
a good answer. I do think that it was not being properly 
justified as to need, and it should have been looked at closer.
    AVOs are very expensive, but they are a tool for 
recruitment. They are important when you're trying to move 
executives across the country. And all Federal agencies were 
participating in that program, not just VA.
    Mr. Bilirakis. Okay.
    The next question: Did you review the real estate market in 
Ms. Rubens' area as part of your investigation? And, if so, did 
those results support the eventual purchase and resale prices 
of her home?
    Ms. Halliday. The OIG did not review the real estate market 
for Ms. Rubens. We looked at the fact that there were two 
appraisals that are given on the potential sale of the 
potential house; they are averaged together, and that becomes 
the AVO average price that will be paid on the house. So we 
didn't really analyze the real estate market.
    Mr. Bilirakis. Okay.
    A question for Mr. Pummill: I understand the OPM 
regulations indicate that relocation incentives should be used 
sparingly. How can VA seriously conclude that all SES positions 
are critical needs and difficult to fill when they are normally 
dozens of applications to fill senior-filled positions?
    Mr. Pummill. I don't think we can. I think that when we 
were using the AVO Program that we weren't paying attention to 
everything we should have been paying attention, and we weren't 
looking at all the procedures and policies that were in place.
    One of the things that the Secretary has done, he's put a 
hold on that. And, inside of VBA, I've put a task force 
together to look at all moves, all incentives, all promotions, 
everything that we do for our senior executives, to make sure 
that everything is being done for the right reasons.
    I think we leaned heavily toward ``it's so important to get 
the right person at the right place at the right time to take 
care of our veterans'' that weren't looking at the second- and 
third-order effects like we're supposed to. And we need to do a 
better job of that.
    Mr. Bilirakis. When asked by OIG if moving SES employees 
around was a way to get around the mandated pay freeze, you 
responded, and I quote, ``I would say that this is probably 
true.'' Do you stand by your statement?
    Mr. Pummill. I did say that.
    Mr. Bilirakis. Thank you.
    No further questions. Thank you. I will yield back, Mr. 
Chairman.
    The Chairman. Thank you.
    Mr. McKenrick, did you write a letter to the Deputy 
Secretary, Sloan Gibson, asking to be moved back to 
Philadelphia in the summer of 2014?
    Mr. McKenrick. I did not.
    The Chairman. You did not?
    Mr. McKenrick. Chairman, I did not.
    The Chairman. Okay. Thank you.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    I just wanted to say that, prior to Mr. McKenrick's 
appointment, many of us who represent southern California had 
been in contact with then-Secretary Shinseki to urge the VA to 
quickly fill this position, which had been vacant for nearly a 
year. And there was an enormous backlog of claims at the L.A. 
office, and, without this position being filled, we were very 
concerned that veteran claims would continue to take far too 
long to process.
    And I am certainly disappointed to learn that the delays in 
filling the vacant position in Los Angeles may have been 
exacerbated by senior VBA leadership.
    I would also like to say that, since Mr. McKenrick filled 
the position, he has made a real effort to increase the VA's 
visibility in our community. He has come up to Ventura County, 
which is my congressional district, on several occasions to 
participate in veteran benefit events that were organized by my 
office and by other local veteran organizations. He has also 
come to participate even in VHA events to learn more about the 
community, for which I am very, very grateful. In my dealings 
with Mr. McKenrick, he has been both professional and committed 
to helping the region's veterans.
    However, the purpose of our hearing here today is to find 
out whether senior-level officials at VBA put undue pressure on 
employees to vacate their positions and relocate. The 
allegations against these VBA senior executives are serious, 
and I appreciate that Mr. McKenrick has appeared before the 
committee today to help us get to the bottom of what happened 
in Philadelphia.
    So the L.A. Regional Office has long been--Mr. Pummill, 
this question, I think, is really for you.
    The L.A. Regional Office has long been one of the poorest-
performing offices in VBA, and filling this position should 
have been a very, very high priority. But, according to the 
IG's report, the first two job postings did not result in 
hiring the Director--I think that has been mentioned earlier--
despite 168 applications, 5 of whom were considered ``best 
qualified.''
    When a third job posting was made, the 112 applicants who 
applied were not rated or ranked. So, according to the former 
VBA Deputy Chief of Staff, the hiring process was suspended at 
the direction of Ms. Rubens' office.
    Were you aware of this action?
    Mr. Pummill. Unfortunately, I wasn't.
    The way we divided up duties and responsibilities is the 
Under Secretary was very much involved with her staff in the 
reassignments of the regional offices. I ran the staff, the 
headquarters, the budget, and the operations and pretty much 
didn't get into that unless I was called in specifically, like 
in Antione's case, because they felt there would be a conflict 
of interest, and they would ask me to do negotiations or things 
like that. I probably only did it for two or three.
    I know peripherally there were lots of problems in Los 
Angeles. The Under Secretary was very concerned about getting 
the right person there. I do agree with you, Mac is the right 
person--strong leader, gets along great with the local 
communities. I think we made a good move there.
    Ms. Brownley. Again, Mr. Pummill, the Office of Personnel 
Management guidelines preclude any salary increases for SES 
employees across all Federal agencies. And, back in 2012, 
Secretary Shinseki stopped all VBA SES performance awards.
    But my understanding is VBA paid $321,000 in salary 
increases to reassign VBA employees in fiscal year 2013, 2014, 
and 2015. So can you explain how the VBA justified these salary 
increases?
    Mr. Pummill. Yes, Congresswoman.
    The first case that I was involved in was actually 
Antione's. And when we were negotiating and we were talking 
salary, I had to call over to the Chief of Staff and ask, ``Are 
we allowed to do a salary increase for SES? I thought there was 
a pay freeze.'' And the answer I got back was, ``Actually, the 
only time that you can increase their salary is during a PCS 
move.''
    So if the duties and responsibilities are such that they 
are more complex or greater, you are moving them from a lower 
SES level to a higher SES level, or there's issues, such as Los 
Angeles or Baltimore, serious issues, long-term issues that you 
have not been able to fix, then you have the authority to--we 
couldn't give the pay raise, but we could recommend the pay 
raise to headquarters, and then the pay raise could be approved 
at our headquarters.
    Outside of a PCS move, we could not raise their salaries.
    Ms. Brownley. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Dr. Roe, you are recognized.
    Mr. Roe. Thank you, Mr. Chairman.
    Just a couple of brief questions.
    Mr. Pummill, I was just inquisitive about how a position 
would be hard to fill if you didn't take applicants for it.
    Mr. Pummill. Congressman, I can't answer that. I don't know 
why they stopped taking applicants.
    Mr. Roe. I mean, it looks to me like, if it was hard to 
fill, you wouldn't have a lot of applicants. But when you quit 
taking them and say it is hard to fill, I think you are--I 
think what happened was, and it is clear to me what happened, 
was that we are getting around some rules here.
    And let me just speak to you from somebody who sees 
veterans every day at home that can't get their claim 
adjudicated, that their care is delayed, they can't get in. And 
I look here at people making hundreds of thousands of dollars, 
moving on close to 200, with 13-percent increases, 11 percent, 
15 percent, on and on, and I have to go home and tell Social 
Security recipients, who also get a government check, that they 
get a big goose egg.
    And do you see how inflammatory that is, when we go home 
and talk to people and try to explain that, how the VA is 
benefiting for themselves?
    And, look, I understand it is a big, complicated 
organization. I do, I get that. And you do have to pay good 
people. I understand that.
    But this is hard for me to understand when I go back and 
explain to veterans that can't get care, can't get a 
colonoscopy, can't get this, and they see this sort of 
behavior. Do you understand that?
    Mr. Pummill. I absolutely do understand. I come from a very 
small town where people don't make very much money. It's a big 
deal; $10,000 is a big deal where I come from.
    I can tell you, as a veteran--I spent 33 years in the 
Army--I really care for veterans. I want to do the right thing. 
We had 20 vacancies in VBA this year, 20 RO vacancies, that we 
had to fill. And our goal was to get the right person to those 
right ROs.
    One of the things we have done is, in the last couple 
years, we now pay more money to more veterans faster than we've 
ever done before. I'm responsible for making sure that $90 
billion a year is paid in benefits and services to veterans of 
the United States.
    Mr. Roe. My point is that it doesn't matter about the $90 
billion. What matters is what gets paid to one veteran. That is 
what they see, is their check. And when they see this is one 
person that has a 13- or 14-percent increase when this veteran 
is getting practically nothing and our Social Security 
recipients this year get a big goose egg--they don't get 
anything, except their costs go up. And that is a problem I 
have for me, personally. I have a tough time with that.
    And, Mr. McKenrick, did you--and I am asking you a fairly 
difficult question, but there was an inference in the OIG's 
report that there would be some risk to you, to lose your job, 
if you didn't accept this mandatory move. And, obviously, you 
soldiered on. I appreciate that you went to a place that maybe 
you didn't want to go to in Los Angeles. You were more 
comfortable where you were, but you did that.
    Were you worried about losing your job if you didn't take 
this assignment, if you weren't ordered to take this 
assignment?
    Mr. McKenrick. I understand the----
    Mr. Roe. If you just said, ``I'm not going to move. I like 
it here where I am. I'm going to stay where I am.''
    Mr. McKenrick. I went through a process in many different 
levels. I showed interest at different levels. I was excited 
about the opportunities. I was interested in it.
    Mr. Roe. So Is the answer yes or no? I mean, I've heard all 
that before. Is your answer, ``Yes, I was worried about it. 
It's sort of in the back of my head''----
    Mr. McKenrick. If I would have said no----
    Mr. Roe [continuing]. Or ``no, I didn't have any concern 
about that.'' That's fine if that's the answer.
    Mr. McKenrick. Congressman, if I would have said no, there 
was always the concern that they could use that to remove me. 
My prior experience told me that if I did not accept one, I 
would have been removed. That was not the case, and I do not 
feel like I was pressured in this instance.
    Mr. Roe. Okay. That's fair enough.
    Mr. Waller, I can't see you, but you for some reason, and 
I'd just like to have your explanation, you didn't use the AVO 
program, or opted out of it. What was the reason you did that?
    Mr. Waller. Well, at the time the AVO was offered, my house 
that I owned in St. Paul, or Minnesota, was devalued, 
undervalued from what it would take to pay off the loan. So the 
offering of AVO would not have been a benefit to me.
    Mr. Roe. Been benefit to you. According to the IG's report, 
you and Ms. Graves had a conversation during which she asked 
you about moving back to the East Coast, and you said you'd be 
interested if there was an opportunity in Philadelphia.
    During this conversation, was there a possibility of 
Baltimore ever mentioned to you by Ms. Graves? Did she ever 
mention Baltimore?
    Mr. Waller. Not in our initial conversation. Baltimore had 
not been a part of the conversation. It was only subsequent to 
my initial conversation that Ms. Graves asked for my interest 
in Baltimore.
    Mr. Roe. Okay. My time is expired.
    The Chairman. Thank you. Ms. Titus, you're recognized.
    Ms. Titus. Thank you, Mr. Chairman.
    I'd like to ask Mr. Pummill some questions. I'm working on 
a letter right now to the IG, which I mentioned at a previous 
hearing, asking them to investigate if there are any G-15 
employees who may have used their influence and power to better 
their situation at the expense of others. I'm also asking them 
to investigate how many GS-15's have moved to jobs with reduced 
responsibilities while retaining their previous salary.
    I would invite and welcome any of my fellow members of this 
committee to join me in this request, and this brings me to a 
specific question about Mr. Ed Russell who was formally 
director of the Reno RO. Now, apparently, they couldn't get rid 
of Mr. Russell, even though he did a terrible job there. We 
know the RO there was one of the worst in the country. He was 
on leave with pay for about a year, I think. Now he is 
teleworking, teleworking as a senior advisor in VBA's office of 
field operations here in Washington, which is a 3-hour time 
difference.
    I'm just wondering if you know anything about this, how 
many people applied for that job, was it created just for Mr. 
Russell, is he doing the same amount of work, getting the same 
amount of pay, and do you have any sense how often this type of 
special position is created at the central office here in 
Washington or in area offices or regional offices to take care 
of this kind of problem?
    Mr. Pummill. Congresswoman, I don't know if that's ever 
been done before. I do believe that the position was created 
for Mr. Russell. Without getting myself in trouble here, I 
believe it was part of a court settlement that kind of 
restricts what we can and can't say about it. One of the issues 
we have is, one of the great advantages of this new 
accountability act with the SES's is it's pretty quick and it's 
done with and we'll see how it works out on these first couple 
of ones that we're doing.
    But with our GS employees, it's the rules, the regulations, 
the protections are such that it's almost impossible to do 
anything. We try to do the right thing. In Mr. Russell's case, 
I can assure you that he is performing GS-15 work. He's being 
held accountable on a daily basis, but it was a very strange 
situation that we had to get him that job.
    Ms. Titus. Apparently he didn't have to move somewhere. He 
got to stay out there in Reno and work from home by phone or 
computer or something.
    Mr. Pummill. Yes, Congresswoman. There are no provisions in 
the law that allow us to forcibly move a GS employee. We can 
only do that with SES employees, and with the SES's, we try not 
to. We try to negotiate as much as possible so they're not 
forced moves. We just don't have that available for a GS.
    Ms. Titus. Well, speaking of that, the Philadelphia VARO 
had a lot of problems under Mr. McKenrick, so you moved him to 
Los Angeles, which also had a lot of problems. Then you moved a 
person from Los Angeles to Reno, which had a lot of problems.
    Is this really a good strategy that you move people from 
poorly performing offices to other poorly performing offices?
    Mr. Pummill. The individual that was in Los Angeles that we 
moved was an acting. They were just there temporarily. We had 
gone through a series of people that we put there acting, and 
they had done a pretty good job for us while they were in Los 
Angeles.
    Mac was brand new to VA. While I wasn't involved in the 
assignments, I felt that when we brought him in, I loved his 
leadership ability, I loved how he works with people, 
negotiates with them, and gets his organizations to work. In 
retrospect, we shouldn't have taken somebody that we hired 
outside of VBA and stuck them in our most complex, hard to work 
regional office. He did a good job for us there, but he was 
much better suited for the Los Angeles office than he was for 
the Philadelphia office, and I think that's played out.
    I mean, he's literally improved them by 89 percent in the 
short time that he's been there. Sometimes we have to move 
people around. We always don't make the right decisions, and it 
was a huge domino affect this year with the 20 vacancies, 
trying to get the right people in the right place and move 
everybody around.
    Ms. Titus. So his primary qualification was not that he 
lived in Philadelphia and you needed that opening to put 
somebody else in?
    Mr. Pummill. Not that I'm aware of, Congresswoman.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Chairman. Thank you very much.
    Mr. Pummill, you said it was probably a mistake to have put 
Mr. McKenrick in the Philadelphia office?
    Mr. Pummill. If I had been making that decision, I probably 
would not have put Mac in Philadelphia as his first assignment.
    The Chairman. Because in his fiscal year 2013 performance 
evaluation, Mr. McKenrick's reviewing officer, Ms. Rubens 
herself wrote, and I quote, ``His leadership through this 
fiscal year has resulted in multiple successes and a steady 
increase in production and quality in the last quarter, and I 
fully expect Mr. McKenrick's leadership to result in continued 
improvements during the coming year,'' closed quote.
    Dr. Benishek, you're recognized.
    Mr. Benishek. Thank you, Mr. Chairman.
    Mr. Pummill, to the best of your knowledge, has any of the 
VA employees mentioned in the report, been interviewed or 
questioned by Federal agents in regard to the findings in the 
report?
    Mr. Pummill. I have no knowledge of that.
    Mr. Benishek. No knowledge of that, okay.
    Can you tell me a little bit more about--I know we 
suspended the relocation program, and you mentioned some of the 
things, but could you tell me again what specifically has been 
done within the VA to counteract the culture that seems to have 
allowed this misuse of funds to happen?
    Mr. Pummill. I had a long conversation actually again today 
with our Dep Secretary, Sloan Gibson. He absolutely 
understands, and so does the secretary, that we have an 
accountability problem. As I was telling the Congressman beside 
you a minute ago, we pay out a lot of money. I understand. You 
can't pay out that kind of money and not be held accountable.
    I mean, we have to be accountable to the Congress of the 
United States. We have to be responsible for what we do in our 
jobs. The dep sec believes that we have to hold people 
accountable. If we don't hold them accountable, we can't make a 
cultural change. He's committed to, under the new law, holding 
at least the SES's accountable. One of the things he asked me 
to put out here is that in all the cases that he's worked since 
he's been given this position of overseeing the SES 
enforcement, he's proposed actions on all that he can, some of 
the decisions are final, some of the decisions are still in the 
appellate process, but he is moving forward on every single one 
of them, he understands the need to hold people accountable.
    Mr. Benishek. I'd just like another commitment from you, 
Mr. Pummill.
    Mr. Pummill. Yes.
    Mr. Benishek. In that incident that Ms. Titus has just 
brought up about Reno and her--I think, disgust with the whole 
situation there. Would you be willing to work with us to try to 
develop better rules for those employees that we can make it 
easier to deal with this type of situation in the future?
    Mr. Pummill. I personally would, but I think you're going 
to have to fight a large Federal Government. These are 
Federal----
    Mr. Benishek. I know, but I think that we need to work on 
this. I think Ms. Titus believes that as well, and I'd like to 
get some advice from you as well to work on that.
    Mr. Waller, do you believe that anybody in the VA has 
misused their positions in any way in this whole situation?
    Mr. Waller. Mr. Congressman, I believe during the course of 
my conversations and my ultimate decision to go to Baltimore, 
came with pressure to accept the assignment. I did in fact 
accept that assignment, and I went into that opportunity with 
all the passion that I could to lead and continue to lead the 
regional office.
    Mr. Benishek. So that's a yes then; is that what you're 
saying?
    Mr. Waller. Well, the answer is----
    Mr. Benishek. I mean, I understand what you're saying in 
that you took the assignment, but my question is, do you 
believe that anybody in the VA misused their position?
    Mr. Waller. I can't answer that, Congressman, if----
    Mr. Benishek. Have you received any retribution or negative 
consequences from following this publication of the IG report?
    Mr. Waller. I'm sorry?
    Mr. Benishek. Have you had any retribution or negative 
consequences following the publication of the IG report?
    Mr. Waller. No, no, Congressman, I have not.
    Mr. Benishek. Mr. McKenrick, have you had anything like 
that?
    Mr. McKenrick. Congressman, I can only answer that the 
constituents very well are aware of what goes on here in 
Washington, and when I go to town halls, just a week or two 
ago, there were questions about the documents that were 
shredded in LA. And I can tell you there were no documents 
shredded in LA, and the IG report found none. We have to be 
very careful how we get things out to the public, and the 
retribution comes from them for what's said or done.
    I've received none from the agency, but from the 
constituents, they want to know answers, and they want accurate 
facts, and I would strive to say that we have to struggle to 
get those facts out from the VA as well. There's opportunities 
when we put misinformation out without getting all of the 
information.
    Mr. Benishek. All right. Mr. Pummill, to the best of your 
knowledge, have Ms. Rubens or Ms. Graves apologized to American 
veterans and taxpayers in regards to their behavior?
    Mr. Pummill. I have no knowledge of that.
    Mr. Benishek. Thank you. My time is up.
    The Chairman. Thank you. Ms. Halliday, if you would, 
clarify Mr. McKenrick's comment that no documents were shredded 
at LA?
    Ms. Halliday. I would gladly clarify that. During the 
shredding process, the documents go through a series of 
reviews. My audit staff, when they went to L.A., were acting on 
received a tip that there were documents in the final shred bin 
that was going off to destruction. My auditors took those 
documents out of those bins and certainly looked at them to see 
were they legitimate documents that needed to be recorded in 
VA's records.
    They did not get destroyed. They got handed back to the 
senior officials at the VARO so that they would be processed 
correctly. We would have been negligent on our part had we just 
let them get destroyed. The fact was, the last bin had nine 
claims-related documents. The other problem was that you 
couldn't tell how many other documents may have been destroyed 
because there was a requirement to maintain a log on the 
destruction of claims documents. The L.A. VARO had not 
maintained that log for several months and did not have a 
records disposition officer. So there was nothing to really 
compare a period of time to another period of time. So Mr. 
McKenrick is technically----
    The Chairman. So it's your testimony, had those documents 
remained in that final shred bin, they would have been 
shredded.
    Ms. Halliday. Absolutely.
    The Chairman. Thank you. Dr. Ruiz, you're recognized. Oh, I 
apologize. Ms. Brown.
    Ms. Brown. Yes. I would like Mr. McKenrick to respond to 
that, and let me just say, I like the way you soldier up.
    Mr. McKenrick. Thank you, Congresswoman. I'll try not to 
say chairman when I address you. I beg to differ. I don't 
know--we're not prepared to talk about shred here, and I 
acknowledge that, and I apologize to the agency for that being 
the issue. That was the answer to the question.
    The shred is every employee has a red bin at their desk. In 
our regional office, every piece of paper that's not packing 
trash or food trash, newspaper or magazine goes in that bin 
under their desk, so they have every piece of paper in that 
bin. They go through that bin before the pickup. This is the 
old process. We changed it and made it better based on the 
recommendations, but everything that was found, the 16 
documents, they looked at 13,800 documents taken from the red 
bins and the gray shred bins at the end of the process after 
the employee reviewed, the supervisor reviewed, the record 
management officer reviewed, then put in a locked gray shred 
bin 113,800 documents reviewed, batting a thousand in the gray 
shred bin, not one document found in the final process. All 16 
additional documents were found in the red shred bins prior to 
the review process. Of that, nine were ultimately, by the IG, 
found to be of concern, and we've worked on that, and we 
disciplined individuals, and that's the responsibility we owe 
you all and the American people and the veterans, and we learn 
from our mistakes. That's what we require from our employees. 
But there was zero in the gray shred bins, ma'am.
    Ms. Brown. Thank you. And Mr. Chairman, you know, we had a 
hearing on this shredding before this committee. I yield back, 
thank you.
    The Chairman. Thank you. I don't believe that changes the 
fact that 16 veterans would have been negatively affected had 
the inspector general not removed those documents from the 
final shredding bin.
    Dr. Ruiz.
    Mr. Ruiz. Thank you, Chairman Miller and Ranking Member 
Brown for holding this meeting. I was appalled to learn of the 
inspector general's report that concluded Ms. Rubens and Ms. 
Graves inappropriately used their positions of authority for 
personal and financial gain. And I'm disappointed that the VA 
is forced to use resources to investigate yet another potential 
scandal instead of focussing their time and attention on 
improving patient care.
    We need to change the culture of the VA to be more veterans 
focused. Our veterans deserve access to a high-quality 
healthcare system and not subject it to one that is bogged down 
in personnel issues like this. The veterans in my district and 
across this great country deserve better.
    I want to go back to Mr. McKenrick. Can you explain the 
process of shredding, one, and two, is do you have any concerns 
about the methodology or legitimacy of both reports from the 
inspector general's office?
    Mr. McKenrick. Thank you, Congressman. Chairman, there were 
none found in the final gray lock-in shred bins. They were, and 
the IG report says, that they were found, and it wasn't clearly 
laid out that every employee has a red shred bin under their 
desk. Our process at the time was that the employee on pickup 
day, the records management officer, they knew they were coming 
around, the employee would go through the bin, the supervisor 
would go through the documents, the records management officer 
would ultimately go through the documents, and then they would 
end up in the locking gray shred bin. There was a process.
    We needed to tighten that process up. There was a hiring. 
There was a transition. The old records management officer 
reapplied and became the new records management officer. He was 
seasoned in that. He was involved throughout the transition in 
the 6-month period. He was in place before----
    Mr. Ruiz. Mr. McKenrick, let me remind you, I asked you the 
question.
    Mr. McKenrick. Sorry, Congressman. I apologize.
    Mr. Ruiz. So do you have any concerns in terms of the 
report, the methodology on the report?
    Mr. McKenrick. We identified in our regional office that 
there were 24 errors, omissions, or misstatements in the IG 
report that were not factual or accurate or misleading from our 
point of view.
    Mr. Ruiz. And you're referring to the shredding report? Now 
how about in terms of the investigation, which this hearing is 
about.
    Mr. McKenrick. Correct. I believe that was your question, 
Congressman.
    Mr. Ruiz. Oh, that's what you're referring to?
    Mr. McKenrick. Correct.
    Mr. Ruiz. Okay.
    Mr. McKenrick. The shredding report.
    Mr. Ruiz. All right. Ms. Halliday, what is the number one 
priority recommendation that you gave in terms of fixing the 
current scandal, and has it been accomplished?
    Ms. Halliday. Are you referring to the current scandal as 
the abuses related to the permanent change of station program?
    Mr. Ruiz. Yes, correct.
    Ms. Halliday. I believe the process has to be tightened up 
so that this situation does not repeat. So I viewed all the 
recommendations in the report all dealing with strengthening 
the process as important.
    Mr. Ruiz. If there was one thing that you would do that 
would make the biggest difference, what would that be, and has 
it been done?
    Ms. Halliday. The one thing that tends to make the biggest 
difference is holding people accountable for these actions.
    Mr. Ruiz. Okay.
    Ms. Halliday. It sends a message.
    Mr. Ruiz. And you're saying that that has not been done?
    Ms. Halliday. I believe Mr. Pummill said that they're in 
the process. I have no information from the IG's standpoint on 
what's happening.
    Mr. Ruiz. How far are we, Mr. Pummill, in making sure that 
people held accountable are held accountable?
    Mr. Pummill. Congressman, both the individuals were 
delivered their proposed punishment on October the 31st. They 
are in their appeal process right now. I believe that's 7 days. 
At the end of the appeal process, we can notify Chairman Miller 
and this committee what that punishment was.
    Mr. Ruiz. Okay. I have no further questions.
    The Chairman. Thank you. Dr. Wenstrup, you're recognized.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    Mr. McKenrick, I want to go back to your evaluation report, 
if you will, for just a second where it says, ``I fully except 
Mr. McKenrick's leadership to result in continued improvements 
during the coming year,'' and that was by Ms. Rubens. And so 
you, based on that recommendation, sounds like you're doing 
well. You're succeeding in Philadelphia.
    I do want to ask about the process just a little bit. 
You're familiar with an OER, officer's evaluation report. Is 
this similar to what you experienced in the military? Are the 
people rating you only allowed to give so many people the 
highest marks, or does everyone--everyone can get the highest 
marks? Did you have to do a support form? How is this process 
compared to that in which I'm familiar with and you are, too?
    Mr. McKenrick. It is similar to the officer evaluation 
report. We do provide input. I am not aware of what the 
criteria is above my level. And I know what the ranking 
criteria is. I know what I put into it. There's a discussion 
with my senior, and then eventually, probably three levels up, 
it's approved, and we're told several months later what our 
evaluation is.
    Mr. Wenstrup. Was Ms. Rubens evaluating many people or just 
you? Did she have a lot of people under her that she's 
evaluating in this situation; do you know offhand?
    Mr. McKenrick. I don't know the profile above me.
    Mr. Wenstrup. Okay. Because I'm curious as to why you would 
be the only person to have to be direct reassigned?
    Mr. McKenrick. If you're giving me an opportunity to defend 
myself on the Philadelphia issue, I will. I personally am 
challenged by the investigation, which was a, according to Ms. 
Halliday, a very elaborative in-depth investigation, over 100 
witnesses. No one ever asked me a question. I was the director 
for 2 years. I worked with the employees that were seated here 
that testified, the union president. I can tell you all the 
good work we do. I can tell you about the meetings we had.
    We discussed those same issues they raised here, and we 
talked about challenges and how to work through those. You can 
always find bad in challenges in everything you do, but you've 
got to look for the good and acknowledge that as well. Thank 
you, Chairman.
    Mr. Wenstrup. Well, one of the things I'm trying to drive 
at is--and maybe someone else can come up with the answer to 
this, but it just seems strange to me that you were the only 
person in your position in America that was under consideration 
for a direct reassignment. Because the assumption that one 
might make is that, one, either you were the best person in 
America that could take this job, and that's why they wanted to 
directly reassign you, as opposed to someone else who maybe had 
similar qualifications and ratings, and they chose you. And I 
just can't believe that you're the only one that they felt 
could fill that position.
    And so it leads people to wonder why that is the case. And 
I'm not knocking your qualifications or the job that you did, 
but I've just got to imagine that there might have been other 
people that have been considered, and I don't see that 
anywhere. Did you hear, in this process, of anybody else, and 
did you ever ask, hey, am I the only person being considered to 
be directly reassigned here?
    Mr. McKenrick. Congressman, in the interactive process, I 
did discuss the challenges out there and why other directors 
weren't stepping up to go out there, why things were so hard to 
fill out there, and as I went through the process and learned, 
and as I went into the interactive process, and even with the 
chief of staff, I struggled with some of the challenges of the 
station. It is a much higher cost of living out there. It is a 
much different type of environment.
    Mr. Wenstrup. I understand that. My question is, why were 
you the only one that was targeted for direct reassignment? 
There has got to be other people with pretty good 
qualifications, and you weren't looking for this.
    Mr. McKenrick. To be frank, I started the conversation. I 
engaged in it. I thought it was fair for the officials to say, 
are you interested, and I was interested and understanding all 
of it and what the opportunities might be, and I can't answer 
as to why I am the one that survived that process.
    Mr. Wenstrup. Well, are you the only one that got put 
through the process is really my question. At any time did you 
ask or find out, is there anyone else being approached for this 
assignment or just you?
    Mr. McKenrick. The only other assignment I heard about was 
Mr. Waller going to Baltimore or--similar--I do not know of----
    Mr. Wenstrup. I'm not talking about that. I'm just saying, 
was there anyone else being considered for direct reassignment 
for the job that you got assigned to besides you?
    Mr. McKenrick. Not that I'm aware of, Congressman.
    Mr. Wenstrup. That's what I wanted to find out, and 
hopefully will find out because I find that pretty curious. So 
why do you think Ms. Rubens was sent to do a job where you were 
seemingly doing very successfully.
    Mr. McKenrick. I can't answer that question either. Not my 
decision.
    Mr. Wenstrup. Thank you, and I yield back.
    The Chairman. Members, I refer you to page 33 and 34 of the 
transcript dated June 10, I quote, Mr. McKenrick said, 
``interested in the challenges and the position and how it's 
made up and wanting to learn more about it is different than 
either applying for or raising my hand and saying send me to 
LA,'' close quote.
    Ms. Kuster.
    Ms. Kuster. Thank you, Mr. Chair, and my questions are 
directed to Mr. Pummill.
    Is it typical for SES's in more senior positions at the VBA 
to take on these director positions with less responsibility 
and in a lower pay band? Does that typically happen?
    Mr. Pummill. The first two that I'm ever aware of were the 
ones that occurred with Ms. Graves and Ms. Rubens.
    Ms. Kuster. And is it common for upper level VBA management 
of any level to take positions of lesser responsibility? Are 
you aware of that ever happening before?
    Mr. Pummill. These are the first two that I'm aware of, 
Congresswoman.
    Ms. Kuster. Okay. And do you know why, in this case, these 
two individuals chose to--or took lower level positions? Do you 
know what the reasoning was behind that?
    Mr. Pummill. I don't know for sure. I can speculate. I know 
that Ms. Rubens had been in her job for a long time and was a 
little bit wore out with the whole DC action and wanted to get 
back to the basics, to an RO again.
    On Kim Graves, to be perfectly honest, I've been in my 
deputy job for 2 years, and in the first couple of weeks in the 
new job, I had discussions with the under secretary that maybe 
it was time to move Kim from an area director to an RO because 
we were having problems in the Eastern area. Kim was really, 
really good, but it just wasn't up to the other areas, and it 
was time for her to move on.
    Ms. Kuster. And I'm just curious, have you ever seen--so 
this was first time you've seen anybody step down, so you 
haven't seen somebody step down and keep the same high level of 
compensation?
    Mr. Pummill. As a matter of fact, when they moved them to 
the new positions, I contacted the IG's office just to make 
sure that retaining their salaries was appropriate, and I was 
informed that under the law, unless it was a demotion or 
adverse action, there was no provision in the law to allow us 
to lower the salaries of somebody going from a higher position 
to a lower position.
    Ms. Kuster. That seems to me, Mr. Chair, something we could 
fix. I mean, these were full-time positions, right? They 
weren't moving to a part-time position or for some other 
reason----
    Mr. Pummill. No, these are full-time, very demanding, tough 
positions, but they are not at the level that they were at 
before.
    Ms. Kuster. Okay. Great. Thank you.
    And is it typical for all SES's to be directly reassigned 
even when they volunteer for a position? And I'm sorry, you may 
have covered this, but I'm just curious about this direct 
assignment compared to volunteering.
    Mr. Pummill. No. An SES can volunteer or be directed. I 
don't believe we've ever directed somebody inside of VBA. I 
think that's something we need to change. I think that our RO 
directors, part of our problem is that they remain in position 
for too long. I think they should be like general officers in 
the Army where they don't spend 10, 20, 30 years at one 
location and become too comfortable. I don't think that's a 
good thing. And that we should use our ability to move people 
around a little bit more often.
    Ms. Kuster. Thank you. Thank you.
    Ms. Halliday, I'm just curious, and you may or may not know 
the answer to this question, but we are learning that this is a 
practice across the government, not just at the Veterans 
Administration. Are you familiar with the practice in any other 
agencies, and have you run into anything quite like this in the 
other agencies?
    Ms. Halliday. I don't have experience or any data on the 
other Federal agencies. The Federal government is so large, you 
would have to think that there are some examples.
    Ms. Kuster. Okay. I have nothing further.
    The Chairman. Thank you very much.
    Mrs. Walorski, you're recognized for 5 minutes.
    Mrs. Walorski. Thank you, Mr. Chairman.
    My question is for Mr. Pummill. I said in a hearing 2 weeks 
ago that the VA continues to have what seems to be a crisis of 
confidence within senior level executives at the VA. Every day 
it seems like there's something new. We've heard project's over 
budget, behind schedule, whistleblowers retaliation, and now 
this issue of collusion among officials to line their pockets 
with fewer responsibilities.
    When I go back to my district, it's the veterans and the 
taxpayers that are furious with what's going on in this agency. 
Constituents in all of our districts work hard for their money, 
they play by the rules, and they want this nonsense to stop. So 
I'm just sitting here thinking, listening to this testimony go 
on and on, and Mr. Pummill, you're a retired Army Colonel, 
correct?
    Mr. Pummill. Yes.
    Mrs. Walorski. And I appreciate your service. Thank you for 
your service to this country. But I think, and I guess I want 
to know, what do you think the effect of the morale of troops 
would be if their commander bent the rules to his or her own 
benefit? And then what does it do to the team? What does it do 
to the troops? What did it do in your former life in looking at 
this situation right now?
    Mr. Pummill. It's devastating that the senior leaders are 
not held accountable at the same level as the lowest person in 
the organization.
    Mrs. Walorski. And I would agree with that, and I would 
also say, you're also from a premier business school, the 
Wharton School of Business advanced management program, and if 
they took this case study today, these professors, and said to 
their students, look at the realtime real life disaster we have 
on our hands. We all long for the day, for this organization to 
be healthy, but it's not, and we've tried everything. What 
would those school professors look at this case and what would 
they say to those students today as to how to fix this? How 
would you fix this?
    Mr. Pummill. I'm actually doing an interview with Wharton 
Magazine in the next couple of weeks to discuss why somebody 
that went to Wharton would work as a public servant, and one of 
the discussions is how do we manage a workforce that we can't--
when you're in the private sector, eliminate somebody or move 
somebody or discipline whenever you need to. We have such a 
complex set of rules, and it's hard, it's tough, the rules are 
there, but we have to work through those rules.
    Mrs. Walorski. Let me ask you this, because most of us in 
here worked on the VA reform bill last October, conference 
committee, the report moved that thing through, and one of the 
things that the chairman has talked about virtually every time 
we meet is the ability for senior level executives to be fired, 
to be disciplined, to be moved out, to bear the brunt of 
transparency and accountability to the American people, but yet 
every time folks from the VA would come in and we'd ask the 
question how many people have been fired in this place, the 
answer may have gone from maybe two, maybe three, maybe they 
couldn't give us the name of somebody that was fired.
    And to your point, I agree, to your point in this Wharton 
Magazine, that profile that you're going to do. Do you need 
more legislative action to be able to discipline and fire 
people who are not accountable and transparent, who have 
committed different kinds of egregious activities? Do you need 
more authority to do that?
    Mr. Pummill. I personally think we need to wait out the new 
SES law and see how that works. One of the problems we've had 
in the past is I've personally disciplined senior executives in 
my current position with the intent of firing them, and they 
resign or retire before I could do that.
    Under this new law, that's not possible. It goes too quick. 
So I think we play it out and see how it goes. I----
    Mrs. Walorski. Well, I guess, and then to your point--and 
sorry for the interruption. But to your point, that's what the 
people in my district have watched on TV. They have watched the 
news reports where people have sat in these very hearings and 
they've been subpoenaed to tell the truth and nothing but the 
truth, and then we find out that they ended up with 
unbelievable retirement settlements, they are gone, they'll 
never answer any question again, in some cases they'll never 
answer a question, period. And then people in my district, 
double income households, retired veterans look at that, and it 
is absolutely demoralizing, as it would have been to troops as 
well, and to these students at Wharton, demoralizing to people 
in my district, to veterans.
    And I guess my final question is, in that demoralizing 
environment, how in the world will the VA ever hire the 
doctors, the nursing professionals, and the administrators to 
run an agency that we here tonight with these two folks that 
are here, how in the world can the VA ever attract the kind of 
employees they need to make this a healthy organization and 
provide services our veterans deserve?
    Mr. Pummill. I think we can do it. I think that the 
secretary and the dep secretary are on track with their MyVA, 
with putting the veteran first in everything they do. There are 
good people out there that want to work for the government, 
that want to take care of veterans. Two of them are here at the 
table with me. These are really sharp guys that have done a 
good job and have given up a lot to take care of veterans.
    There are of people out there that want to do it. We've 
just got to show the commitment that we're going to hold people 
accountable, that we want to do the right thing, and they'll 
come work for us.
    Mrs. Walorski. I appreciate it. Thanks, Mr. Chairman. I 
yield my time back.
    The Chairman. Thank you very much.
    Mr. Walz, you're recognized.
    Mr. Walz. Thank you, Mr. Chairman, and I would have to 
associate myself with Dr. Ruiz. Once again we're focussing on 
leadership or issues with it instead of focussing on the 
veterans. And what I'd like to be talking about is reform, how 
to strengthen morale, improve workplace in the VA.
    We all know leadership is directly linked to veterans' 
care. We can hire the best doctors in the world or the best 
claims processors, but in a toxic work environment, it's going 
to impact veterans' care.
    I think the good news is, and there's great questions, and 
you're hearing them, these questions are coming from the 
American people. When I go to have breakfast Saturday morning, 
folks are asking me what I'm going to ask all of you, they want 
to know those things. And I think the good news is there's a 
simultaneous accountability piece in the Department of Justice, 
and I think at that point in time maybe we'll find out a little 
more.
    But until we get to there, what I want to know, Mr. 
Pummill, dealing with veterans, as Ms. Graves is dealing with 
her own personal and the legal situation here, who is managing 
the day-to-day operations at the St. Paul regional office?
    Mr. Pummill. We had a discussion after I talked to the dep 
sec on the 31st of October, and he informed MP that he was 
going to take proposed action against both Ms. Rubens and Ms. 
Graves. And we looked at Minnesota. We determined that the 
deputy at Minnesota is very strong and is more than capable of 
filling the position, if for some reason Ms. Graves is unable 
to fill that position. We're going to be okay there. She's 
really, really sharp and----
    Mr. Walz. So you give me your assurances, there's not a 
single veteran has been in any way negatively impacted by Ms. 
Graves' situation?
    Mr. Pummill. I'll give you my assurance. We'll do 
everything we can to make sure that doesn't happen. One of my 
concerns, obviously, is going to be when we take action against 
senior people, as the Congresswoman over here said, that's 
their leader. There's an impact on the office. My job is to 
make sure that office stays motivated, they understand we're 
doing the right thing, we're not doing this arbitrarily, it's 
for the country, it's for veterans, and for them to, as Mac 
said, soldier up and do their job.
    Mr. Walz. And I appreciate that because I'm concerned first 
with the veteran and secondly with those employees are who are 
going to work and doing it every day. And I think they soldier 
on, and they do, and they know moves happen, but I would make 
the case, I'm going to tie two things together here.
    Did I hear you correctly, Mr. Pummill, you said Ms. Graves 
was moved to St. Paul because she wasn't performing to standard 
in her previous position?
    Mr. Pummill. No, she wasn't moved to Minneapolis because 
she wasn't performing to standard. I just felt, in my position 
as the deputy, that of our area directors, that the eastern 
area, which is her area, was not our strongest it was our 
weakest.
    Mr. Walz. How would you rate the St. Paul office under Mr. 
Wallers' leadership?
    Mr. Pummill. Excellent.
    Mr. Walz. I bring that up because I would say that, too. 
From my constituents and from what the VA has said in my 
personal interactions with that office that have been pretty 
extensive, they could not have been happier. So you talk about 
those employees and their leader. I would suggest to you their 
leader was Mr. Waller.
    And my question is, when these decisions are made, who's 
looking at the second- and third-degree effects that it's 
happening on the workforce and that you move them. And so these 
questions started to be asked, and I'll close with this to ask 
you--I think Mr. McKenrick led into this, and brought up the 
question about the press.
    I can tell you the press has a critical responsibility in 
our democracy, as all of you know, but I can tell you, trying 
to pull information out of you, all's they have to do, it's 
FOIA, FOIA, FOIA, they can't get a strong answer, they don't 
know what's going on, they're asking the veterans questions, 
too.
    So Mr. McKenrick, you are right, that misinformation gets 
out there. When there's a vacuum, misinformation will fill it, 
but I would suggest to you, too, is don't expect in the VA in 
this environment to get the benefit of the doubt on anything. 
That's just simply the reality.
    What I'm suggesting to all of you is what can we do to have 
these senior leaders who know what's going on, who have the 
trust of the VSOs, the trust of the veterans, are working with 
local elected officials, can't you give them some rein to 
answer questions to the press? Can't you let them get out there 
without having to clear it all the way back here and then all 
the way back down, so I've got reporters knocking on doors on 
TV. Does anybody have----
    Mr. Pummill. We can, Congressman. The secretary--just so 
you know, I was supposed to retire on 1 November of this year. 
I put in my retirement about a year ago. The secretary asked me 
to stay and be the acting under secretary. I told him I would 
stay as long as he needed me and as long as he had confidence 
in my ability to do the job. I'll give you my word, I will give 
them more rein. I want them to engage with the press. I want 
them to engage with their local legislators, and----
    Mr. Walz. I appreciate that, and I don't know Mr. McKenrick 
personally, but I do know Mr. Waller. I think it would be in 
the VA's best interest, transparency, veterans trust in fixing 
it, is to have folks that you have confidence in. This is a 
senior executive. Give them the authority to talk to people and 
reassure them, because the minute this gets held back, the 
public thinks the worst because you're not getting the benefit 
of the doubt, so I appreciate that, that offer, and I yield 
back.
    The Chairman. Thank you very much.
    Dr. Huelskamp, you're recognized.
    Dr. Huelskamp. Thank you, Mr. Chairman. Thank you for 
calling this hearing and trying to get to the bottom of some of 
these questions. I appreciate the line of questions from Mr. 
Walz, as well as Ms. Titus. I want to follow up. I believe Mr. 
Pummill made a statement to the extent that I wonder if you 
would restate or explain that a little more.
    I think you said it is virtually impossible to fire a GS 
employee. Could you clarify and explain that a little more from 
your experience?
    Mr. Pummill. In my experience--and it's not very much. I've 
been with the VA for 5 years. The civil servants, and I believe 
this is Federal Government-wide, have incredible protections 
and safeguards, and so the process of taking care of a problem 
employee takes an incredible amount of documentation, 
oversight, time, energy, and taxpayer dollars. It normally ends 
with somebody outside of our organization coming back and 
saying you missed a step, reinstate the person with back pay. I 
personally find it very, very hard and impossible to navigate 
through.
    Dr. Huelskamp. So it's virtually impossible, in your 
opinion then.
    Mr. Pummill. That's my opinion, yes, Congressman.
    Dr. Huelskamp. What about senior executive service, and how 
would you describe that process of removing--or removing 
employees that are not doing their job?
    Mr. Pummill. Well, I've learned a lot about the new process 
in the last couple of weeks. I think it's going to work. I 
think it's the right decision. I told Chairman Miller and 
Senator Blumenthal at a meeting they did a town hall with us a 
while back that I felt it should be government-wide, not just 
one department inside the Federal Government. I don't think 
that's quite fair.
    It puts a lot of pressure on us, but I understand that this 
is the veterans committee and not the whole Federal Government, 
but I have a concern with that.
    Dr. Huelskamp. Well, I appreciate that, and we tend to hear 
that from the--I believe the IG's office. It's rare a VA 
employee will give us a little more insight like you have, so I 
appreciate your honesty as well, and you know, compared to a 
couple, I don't know if they're soon to be former employees, 
what the status will be on the other two ladies, certainly at 
this point they weren't willing to share their experience. 
We're trying to improve this agency.
    But before you did testify, did you, Mr. Pummill, have any 
conversations with superiors above you about what you would say 
at this particular hearing?
    Mr. Pummill. The only conversation I had was with the--both 
the secretary and the dep sec. They told me to be honest, to 
tell the truth to this committee, and they both told me to 
please relay to this committee that they are absolutely 
committed to turning the culture of the VA around, to holding 
people accountable, and to making it veteran-centric.
    The dep secretary said to say that he's responsible for 
posing all SES misconduct and to assure this committee that 
he's moving forward with all deliberate speed.
    Dr. Huelskamp. Who made the decision to not testify and 
require us to issue a subpoena for you to come and the other 
folks here?
    Mr. Pummill. I wish I knew, Congressman.
    Dr. Huelskamp. So you weren't free to make--well, who made 
the choice for you? Weren't you----
    Mr. Pummill. I was informed through a very complex chain of 
command that in order to ensure the due process of the 
individuals involved in this case, that it was inappropriate 
for us to testify at that time and that the dep sec had offered 
to come forward.
    Dr. Huelskamp. Who told you you could not testify then?
    Mr. Pummill. I don't know. That's probably a couple of 
people.
    Dr. Huelskamp. Let me get this straight. I guess I'm a 
little confused. Someone told you you couldn't testify, and I 
appreciate your testimony tonight, but it was compelled by 
subpoena. Somebody told you you couldn't testify 10 days ago, 
and you don't know who that was?
    Mr. Pummill. Well, I know who it was.
    Dr. Huelskamp. Who was it?
    Mr. Pummill. It would be one of the ladies that works in 
our OCLA department inside of VBA, so she's pretty low level 
who would be talking to OCLA, who would be talking to the 
legal, there was--there's a whole--so I don't want to put it on 
her. It clearly wasn't her decision either. She just came and 
said, hey, look, you guys are not going to be able to do this, 
and of course I received Chairman Miller's subpoena on a 
airplane on the way to Atlanta, of which I immediately emailed 
that I would be present at the hearing.
    Dr. Huelskamp. Oh, yeah, absolutely. That's called a 
subpoena, but I was just trying to understand who was telling 
you----
    Mr. Pummill. That's how----
    Dr. Huelskamp. And if we're going to try to clear this up, 
and it sounds to me it's not just two poor performing employees 
that were clearly gaming this system. We're talking about folks 
above you that said, no, we don't want you to come and tell us 
the truth too soon.
    Mr. Pummill. No, Congressman, I don't believe anybody was 
gaming the system. I believe that they were honestly trying to 
make sure under the new accountability act that they didn't 
screw it up, that they got the proposed punishments out, that 
they did the right things, they were--I think--I hate to say 
``think'' here, but I don't believe that they wanted us to 
start testifying and saying things that would mess up that 
process because this is the first time we've used this process.
    Dr. Huelskamp. Well, yeah, and you're talking about the 
response to our invitation to testify.
    Mr. Pummill. Yes, Congressman.
    Dr. Huelskamp. And the refusal of five employees to do that 
unless a subpoena was issued, but you do agree with the 
conclusion in the IG's report that they were gaming the system, 
those two employees?
    Mr. Pummill. The only report I have seen is the public 
report. I have not seen any of the actual testimony. None of 
that has been released to me?
    Dr. Huelskamp. Do you agree with the IG's report? I'll get 
a----
    Mr. Pummill. I have complete confidence in the secretary 
and the dep sec. They've looked at everything, and if they 
believe that they've done the right things, I back them up 100 
percent.
    Dr. Huelskamp. Thank you. Mr. Chairman, I yield back.
    The Chairman. Mr. O'Rourke, you're recognized.
    Mr. O'Rourke. Thank you.
    Ms. Halliday, I wanted to see if I could summarize in a 
simple way some of the conclusions that are drawn in your 
report.
    Two senior VBA officials used their positions to force out 
two regional office directors who are in regional offices that 
those two senior VBA officials want to occupy, St. Paul and 
Philadelphia, and then are compensated for their move at a 
figure that most of us find exorbitant, even though they do not 
need that compensation in order to make the move. They had 
already volunteered for that move to Philadelphia and to St. 
Paul. Is that--do I have it basically right?
    Ms. Halliday. Basically, yes.
    Mr. O'Rourke. Okay. So Mr. Pummill, do you disagree with 
any of that?
    Mr. Pummill. I don't disagree with that, but I have not 
seen any of the evidence.
    Mr. O'Rourke. Okay. So one aspect of this that seems to be 
in disagreement tonight is whether Mr. McKenrick was forced out 
of Philadelphia to LA. Do you disagree with the IG's conclusion 
that that seems to be the case? And maybe ``forced out'' is the 
wrong word, but was pressured to move from a position where he 
wanted to stay, his family was there, his kids were there, he's 
quoted as saying I wasn't jumping up and down to do this. Do 
you disagree that he was pressured out by Ms. Rubens?
    Mr. Pummill. I would have to see both of their testimonies 
to the IG before I could make that determination.
    Mr. O'Rourke. Okay. So because--I'm asking because you said 
that you have punished Ms. Rubens and Ms. Graves.
    Mr. Pummill. The dep sec has punished them.
    Mr. O'Rourke So the deputy secretary has punished them?
    Mr. Pummill. He has seen the full testimony.
    Mr. O'Rourke For what are they being punished?
    Mr. Pummill. I don't know.
    Mr. O'Rourke You don't know.
    Mr. Pummill. No. This committee has actually seen more 
evidence than I have. I have only seen the public report. I 
have not--and that's not evidence. I haven't even seen my own 
testimony to the IG. Nothing has been released to me. So I'm 
coming in here seeing the public report. I absolutely have 
confidence that the secretary and the dep sec have proposed a 
punishment, and whatever that punishment is, I assume that that 
punishment is appropriate because they have all the evidence to 
make their----
    Mr. O'Rourke We don't know what the punishment is for, and 
we don't know what the punishment is. Is it safe to say, Ms. 
Halliday, that the criminal referrals that have been made are 
connected to what I just described?
    Ms. Halliday. We have made a criminal referral, but the 
Department of Justice has not decided at this point whether 
they will accept it for prosecution. If they do not, then it 
moves to the department to take their administrative action, 
which is what Mr. Pummill is talking about with the Deputy 
Secretary Gibson and Secretary McDonald
    Mr. O'Rourke Okay. And you made 12 recommendations in your 
report, and the VA agreed with all 12 of them. Some of them had 
a deadline of Saturday, October 31st, and you mentioned that 
for two of them, for administrative action against Ms. Rubens 
and against Ms. Graves, that the VA has fulfilled that, and 
they are going through the due process related to that.
    What about two others which are to recoup expenses paid to 
Ms. Graves and to Ms. Rubens? Have you sent them a bill to 
recoup that money?
    Mr. Pummill. I have not sent them a bill, Congressman
    Mr. O'Rourke Or I'm sorry, has the VA sent them a bill?
    Mr. Pummill. I do not know.
    Mr. O'Rourke That was supposed to happen by October 31st. 
Do you know if that's been fulfilled?
    Ms. Halliday. The VA, as far as I know, has to weigh all 
the evidence and determine the extent to which either 
individual would have to pay back funds. We put the full amount 
of the cost of Ms. Rubens' and Ms. Graves relocations in the 
recommendations 9 and 11. Because we believe they misused their 
position, we were trying to make the Government whole.
    The decision will have to be with the Department as they 
weigh all the evidence to determine the appropriateness of 
recouping the expenses related to her relocation, because for 
the $274,000, Ms. Rubens did not receive all of that money. 
Most of it goes to the AVO program to buy the house. She 
received approximately $33,000
    Mr. O'Rourke But due to her actions, if we believe what is 
presented before us, the taxpayer is out that amount.
    Ms. Halliday. Yes. I believe the Government needs to be 
made whole since we drew the conclusion that Ms. Rubens and Ms. 
Graves misused their position.
    Mr. O'Rourke Mr. Pummill, we have a very ambitious goal and 
deadline for reducing the backlog of claims, and I first want 
to commend the VBA, you, the two gentlemen who are seated with 
you, and everyone who has worked on this to make extraordinary 
gains towards reducing that wait time. Has this debacle and the 
under secretary for the VBA stepping down, has that in any way 
impeded or progress towards achieving that goal?
    Mr. Pummill. Yes, it has.
    Mr. O'Rourke Can you explain?
    Mr. Pummill. It has because when--anybody who's been in the 
military knows that when you remove a commander, there's an 
impact on the organization, and to pretend there wasn't an 
impact, which is--it's silly. There was an impact. There was a 
downturn in claims for about 4 or 5 days after people got past, 
hey, our under secretary is gone for whatever reason, and we're 
back. I can tell you we're back on track. They picked it back 
up again and as of last Wednesday, they were hitting over 5,000 
claims a day.
    Mr. O'Rourke And with the chairman's indulgence, can you 
tell us now, or when will you be able to tell us what the reset 
goal and deadline will be?
    Mr. Pummill. We will--by the end of the calendar year 
around Christmas time, we are still going to be between 70- to 
80,000 claims in what we consider the backlog, which is over 
125 days. But as far as getting to zero, we will never get to 
zero. There will always be veterans that because of the 
complexity of their cases, say a veteran exposed to nuclear 
radiation, something like that, that you can't do in 125 days, 
but we are committed to get that number down as low as 
possible. And I personally think--okay, we spent all this time 
getting down to 125 days improving our quality, but none of 
that means anything if the veterans don't trust us, if they 
don't believe us, if they don't believe our numbers.
    So how do we gain the trust and confidence not just of the 
American people, but of veterans, the VSOs, and this committee, 
we got to gain that, we've got to get that trust so we can show 
you guys that here's the number of days we've got. We are using 
the taxpayer dollars to the best of our ability, and we are 
going in the right direction to take care of veterans.
    Mr. O'Rourke Thank you. Thank you, Mr. Chairman.
    The Chairman. Dr. Abraham, you're recognized.
    Mr. Abraham. Thank you, Mr. Chairman, and thank the 
witnesses for being here.
    Mr. Pummill, Colonel, I'll go to you you first. We have--
you said some elegant statements tonight about accountability. 
Congressman Walz certainly brought the issue up, and what this 
all boils down to in my opinion from our veterans is lack of 
accountability and the lack of trust within the VA system.
    So just personally, I find it incredulous that we have to 
subpoena witnesses to testify when they are asked to do so. 
Going back to Mr. Huelskamp's question, I'll ask you a direct 
question. You said there was a lady that told you that you 
had--that you could not--will or will you will not reveal that 
name?
    Mr. Pummill. Oh, Christina Detouche (ph).
    Mr. Abraham. Okay. And that's all I ask. Again, I just 
wanted----
    Mr. Pummill. Just a clerk. I didn't want to----
    Mr. Abraham. And that's fine. We didn't want to, you know, 
bring her into the morass. I just want to make sure that we 
have an open dialogue and that there are no even innuendos of 
trying to hide or protect.
    Ponying up on Dr. Benishek--Dr. Benishek's question, I will 
ask each of you, the three, and I realize that, Mr. Waller, you 
and Mr. McKenrick have done outstanding work, and we appreciate 
your service to the country and to the VA system, but have any 
of you personally been interviewed or questioned by Federal 
agents on this IG report?
    Mr. McKenrick?
    Mr. McKenrick. I consider an IG investigator to be a 
Federal agent, if that's what you're asking me. Regarding this 
report, they interviewed me twice on the record, and I believe 
one other time we had extensive dialogue which continued 
through email.
    Mr. Abraham. Thank you. Mr. Pummill, Colonel?
    Mr. Pummill. Congressman, just the IG.
    Mr. Abraham. Yes. Mr. Waller?
    Mr. Waller. Same here, just the IG.
    Mr. Abraham. Thank you, gentlemen.
    Mr. Pummill, let's go back to the Baltimore application 
process. I think we were told as a committee there were 131 
applicants that applied to that job. Were any of them 
interviewed or questioned as far as their ability to take this 
job?
    Mr. Pummill. I don't know, Congressman.
    Mr. Abraham. Okay. Mr. McKenrick, were you aware that Ms. 
Rubens had family in Philadelphia?
    Mr. McKenrick. I was, Congressman.
    Mr. Abraham. And do you think that influenced her decision 
to move you to Los Angeles for her to be closer to her family? 
And again, it's an opinion.
    Mr. McKenrick. I don't have an opinion as to what she may 
have speculated, but I also believe it was not her decision to 
move me to Los Angeles. It was the chief of staff.
    Mr. Abraham. And did you read the IG report, sir?
    Mr. McKenrick. I did, sir.
    Mr. Abraham. Okay. So, and you understand the implications 
of the possible misuse of her position to move into that 
position and possibly move you to LA?
    Mr. McKenrick. I do, and I am the individual who was 
involved at all the different steps with multiple area 
directors, with Ms. Rubens as the office of field operations, 
deputy under secretary, as well as the chief of staff, and 
others that I talked to and learned more about the West Coast, 
and I didn't see it the same way that the IG saw it.
    Mr. Abraham. And we understand the cost of living, as you 
alluded to, is much higher in the LA area. What was your 
reimbursement, so to speak, for your moving expenses?
    Mr. McKenrick. I believe they're listed in the IG report.
    Mr. Abraham. Do you know those--do you know those figures 
yourself?
    Mr. McKenrick. I was given a relocation incentive.
    Mr. Abraham. Yes, sir. Do you know that figure, sir?
    Mr. McKenrick. $20,000.
    Mr. Abraham. Okay. And Mr. Waller, and what was yours, sir?
    Mr. Waller. My relocation was $40,000.
    Mr. Abraham. Thank you. Okay. No more questions, Mr. 
Chairman.
    The Chairman. Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Pummill, who at the VA is responsible for approving of 
the $288,000 for Ms. Rubens and the $129,000 for Ms. Graves?
    Mr. Pummill. The chief of staff of the VA is the approval 
authority for the SES moving incentives and AVO. I don't think 
that they would approve an exact number. That depends on the 
appraisals of the house and all that kind of--I don't think 
they would know that in advance
    Mr. Zeldin. Aside from the IG investigation that we've been 
talking about all night, what investigations--other 
investigations may have gone on internally within the VA?
    Mr. Pummill. I'm sorry?
    Mr. Zeldin. Other than the inspector general's 
investigation, which was done as a result of this committee 
requesting it, what kind of investigation has been initiated 
internally?
    Mr. Pummill. Oh, whenever a case like this comes up, we 
initiate what's called an AIB, which is an internal 
investigation that we attempt to do in VA, but since the new 
secretary has arrived, he set up an Office of Accountability 
Review where he's brought in a team, and if it involves a 
senior executive anywhere in VA, they take that investigation 
from us now, and they handle it to make sure that it's done 
fairly and equitably throughout the VA.
    Mr. Zeldin. When was that investigation initiated?
    Mr. Pummill. I don't know if there was one in this 
instance. I'd have to take that for the record and find out.
    Mr. Zeldin. Ms. Halliday, do you know there was an 
investigation initiated internally?
    Ms. Halliday. I do not know if there was an AIB concerned. 
I do know that the evidence was turned over to the Department 
to be reviewed by General Counsel and the Office of 
Accountability and Review and that they were doing that review.
    Mr. Zeldin. Ms. Halliday, do you have any information as to 
anyone else being the target of an investigation, other than 
Ms. Rubens and Ms. Graves?
    Ms. Halliday. I believe that there is at least one other 
example of potential misuse with a recruitment bonus and 
relocation, but it's in VHA, and that's being handled 
separately.
    Mr. Zeldin. Any reason, Mr. Pummill, why--or Ms. Halliday 
can answer this as well--why there isn't anyone being the 
target of an investigation for signing off on these exorbitant 
numbers?
    Mr. Pummill. I don't think the investigation was limited to 
the individuals that got the payouts. I believe everybody in 
the entire chain of command is under investigation.
    Mr. Zeldin. To what level?
    Mr. Pummill. All the way up to the Under Secretary. That 
was in the IG report. I believe, yes.
    Mr. Zeldin. Okay. So there may be another investigation 
that was done internally that you don't know about, Mr. 
Pummill?
    Mr. Pummill. I don't believe there was. I just think the 
Office of Accountability looks at it, the IG looks at it, and, 
of course, they turn it over to the Justice Department. But 
that's all I'm aware of right now, Congressman.
    Mr. Zeldin. And, Mr. Pummill, you said earlier, I mean, 
it's your opinion that the VA should be accountable to 
Congress, correct?
    Mr. Pummill. We should be accountable to the American 
people, the veterans, Congress, everybody. It's--we're going to 
spend taxpayer dollars to take care of veterans, we have to be 
accountable.
    Mr. Zeldin. So, I mean, Ms. Rubens, Ms. Graves, they're the 
target of these investigations, but it was signed off on by the 
chief of staff. What kind of accountability is being provided 
other than the target of your investigation? It goes up to the 
top of the VA.
    Mr. Pummill. Congressman, I don't believe that the AVO 
program or the amounts of the AVO program are really under 
investigation. I think, this is Danny Pummill speaking, I think 
the investigation is whether or not people colluded to have 
people removed from positions so they could take positions.
    This AVO program is a Federal-wide--it's a government 
program that's used for SESs and GSs throughout the government. 
The prices that we paid are not exorbitant. They're prices that 
are paid all over. I personally think it's too much, that we 
shouldn't be, you know, spending that kind of money in the 
Federal Government. But this is a legal, legitimate program 
that's available to everybody in the Federal Government.
    Mr. Zeldin. But, Mr. Pummill, going one step further beyond 
the money, you say Mr. Waller did an excellent job in St. Paul, 
correct?
    Mr. Pummill. Yes, he did.
    Mr. Zeldin. Okay. And Ms. Graves is coming from a setting 
where it was underperforming, correct?
    Mr. Pummill. Right.
    Mr. Zeldin. So doesn't it seem like--I mean, there are a 
lot of different examples this committee hears about where if 
it's not broken, break it. And, you know, if it is broken, then 
cover it up. I mean, this committee has heard, you know, 
hospital construction costs several hundred million dollars 
over budget, and we're being told here that they're operating 
off an artificial budget. One colleague asking when she was 
going to get a timeline of when she's going to get a timeline 
of there actually being a budget. Here, we're on another issue 
and Ms. Graves and Ms. Rubens are clearly the targets of an 
investigation. But there's no evidence whatsoever that anyone 
else above her in the chain of command, that there's any type 
of accountability that's being pursued. Is Ms. Graves still in 
charge at St. Paul?
    Mr. Pummill. Yes, she is.
    Mr. Zeldin. Okay. So I would just offer that that 
accountability to Congress, that accountability to the American 
public, has not yet been provided. Your testimony was not 
provided to the chairman as he requested. That's why you're 
only here because of a subpoena. And that accountability still 
is desperately in need. And that is why we are meeting tonight, 
and I appreciate the chairman for having this really important 
hearing.
    I yield back.
    The Chairman. Mr. Costello, you're recognized.
    Mr. Costello. Thank you. I think I have questions for 
everybody here but Mr. Waller, if I can get to them.
    I'll start with Ms. Halliday. On page 21, May 27, 2014, Ms. 
Rubens--this is the third one down. Ms. Rubens and Ms. Graves 
had email correspondence regarding Mr. McKenrick relocating. 
Specifically, Ms. Rubens wrote, quote, Okay, boss. Looks like 
I'm coming home, as Mac will choose one of the options. I went 
with the most expedient, exclamation point. Ms. Graves replied, 
Woo hoo, exclamation point. Have you talked with him about 
dates, question mark, end parenthesis. Ms. Rubens responded, 
Remember, I can't be in the middle of his move, so you may want 
to check with Willie, Mr. Clark, end parentheses. At this time, 
Mr. Clark was VBA's Western Area Director.
    First question here is--how did Mr. Clark, as a western 
area director, sort of become, if you know, the person to which 
the maneuvering for Ms. Rubens' to get the job, how did he 
become such a central figure there? Was that of Ms. Rubens' 
making, or did someone else assign him to that position?
    Ms. Halliday. I believe that was based on his position as 
the western area director.
    Mr. Costello. Okay.
    Ms. Halliday. Ms. Rubens, once she identified to General 
Hickey she wanted the Philadelphia position, should have 
recused herself from everything.
    Mr. Costello. But the western area includes Philadelphia?
    Ms. Halliday. No. That's the Eastern Area.
    Mr. Costello. Right. But we're talking about Philadelphia, 
then----
    Ms. Halliday. He was--you're talking about McKenrick going 
out to L.A.
    Mr. Costello. Oh, this is not----
    Ms. Halliday. It's in the Western Area.
    Mr. Costello. So I misread this to be--this is actually not 
Ms. Rubens--Ms. Rubens responded, ``Remember''--oh. I see. 
Okay.
    So here's my follow-up question to that, though, is Mr. 
Clark's involvement. I believe he was a central figure in 
actually charging the AIB in Philadelphia. Did you look into 
that at all in terms of--the charging letter for Philadelphia 
obviously did not include Ms. Rubens' unseemliness. But did you 
evaluate that any further in terms of there being any 
relationship between Ms. Rubens and Mr. Clark.
    Ms. Halliday. No.
    Mr. Costello. You didn't find that or----
    Ms. Halliday. As far as Mr. Clark's role with the AIB in 
Philadelphia, we did not do anything. That is a management 
function for VA to determine the extent of any culpability of 
staff based on the evidence we provided. The IG's role would be 
to allow sufficient time for corrective actions to take place 
and then go back in and look at whether the conditions have 
been corrected. So it's a little bit different.
    Mr. Costello. Okay. Mr. McKenrick, did you have an 
opportunity to review the IG report? And even more 
specifically, the recommendations made by Ms. Rubens at 
Philadelphia? Do you recall there was about 35 recommendations 
that she then followed up and said 32 out of the 35 were 
corrected or addressed? Do you have----
    Mr. McKenrick. I am aware of the report. I did review the 
report on Philadelphia.
    Mr. Costello. Do you have any opinion on the report?
    Mr. McKenrick. No. I don't know the facts, as I was not 
there at the time that the IG went through. And I'm not there 
today. So I don't know what Ms. Rubens did about all those 
issues. But I just struggle with the initial aspect of how the 
IG did an investigative process in Philadelphia and didn't ask 
me a question.
    Mr. Costello. Well, that's what I was getting at. Yes. Did 
you find the IG report, or did you find any of Ms. Rubens' 
statements about the condition of the Philadelphia regional 
office to be too far reaching, too critical, inaccurate?
    Mr. McKenrick. No. I found them in the parts that I could 
associate with from having been there, not knowing what Ms. 
Rubens had done after I left particularly. They were accurate 
with some of the struggles we had.
    What I take exception to is the other side of the coin. All 
the good work and the other things we were working on and 
doing, and that's what I struggled to find in the IG report, is 
that fairness, which is listed in their standards, that they 
have to be equitable, and you know----
    Mr. Costello. Equitable in what respect?
    Mr. McKenrick. In the IG standards, it looks for a 
wholesome communication between the IG, and we work with the 
IG, and they are there to help make us better and to identify 
things that we need to work on. But there's room to tell the 
good story of the things that we did do, the collaborative 
efforts that were done there, the way we redid some of the 
organization to get more efficient, more effective.
    Mr. Costello. Okay. You're directing your consternation 
more at the IG than at Ms. Rubens, is what I'm gathering?
    Mr. McKenrick. I think Ms. Rubens was a great leader. She 
did great work.
    Mr. Costello. Okay. And obviously, I represent a district 
right near there. Some of my veterans go there. And the 
concern, as I have, and we--today we read about the number of 
VA employees on paid leave is, it's a stain on the credibility 
of any improvements that have been made at the Philadelphia 
regional office, when you have a director, and I think Mr. 
O'Rourke summarized what the conclusions are about her, about 
what Ms. Rubens did, and it's very, very difficult, I think, 
for those who use the facility who are looking for 
improvements, to be able to say, Oh, I believe that all that 
has happened, all that good reform has been made, when you have 
the person there who stewarded all that do what she did.
    One last question, if I can, for Mr. Pummill. All SES 
positions appear to have been critical needs. The critical 
needs standard, I guess, is the standard you need in order to 
use the relocation program. Is that correct?
    Mr. Pummill. It is correct. That's the standard you're 
supposed to use. All the SES RO directors, 56 ROs that are SESs 
are critical needs because they're so important. And I 
absolutely admit we got to do a better job. That's why 
everything's on hold and we're relooking at the entire process.
    Mr. Costello. Okay. I yield back. Thank you.
    The Chairman. Ms. Halliday, would you like to respond to 
Mr. McKenrick's statement just a minute ago?
    Ms. Halliday. Yes, I would.
    The Chairman. Please do.
    Ms. Halliday. At the Philadelphia VARO, we received over 
200 allegations of problems dealing with data manipulation, 
tinkering with the numbers, poor performance, and 
mismanagement. We could not look at all 200 of these 
allegations individually instead, we took all the critical 
processes that we found in the VARO that would lead to an 
efficient operation, and we evaluated those.
    I don't believe we needed to speak to Mr. McKenrick. I 
think we needed to look at the underlying processes, the data 
there, because it was very difficult to determine whether 
someone had an agenda and wanted us to come to some conclusion. 
We did much more work than we had to do to make sure we got the 
message right. The Philadelphia VARO had problems in its 
Pension Management Center and in its Compensation Service 
Center. Everywhere we looked, we had problems.
    So I do take some exception to the opinion that I needed to 
talk to Mr. McKenrick, who was no longer working at the 
Philadelphia VACO while the OIG team was there. The team 
entered the Philadelphia VARO on June 19, 2014, and worked from 
that point on. I think by then, Mr. McKenrick was already in 
L.A., I don't know the exact dates. But I think looking at the 
evidence, looking at the process, and doing interviews of all 
the people that are doing the work in the trenches, was more 
than enough to provide an accurate picture of the Philadelphia 
VARO.
    The Chairman. Thank you.
    Ms. Brown. Mr. Chairman.
    The Chairman. Yes, ma'am.
    Ms. Brown. Before we move on, I just want to say that this 
committee went to Philadelphia, and we had a hearing there. 
And, in fact, the hearing that we had on that issue, veterans, 
came to this committee, and they wanted us to know that it was 
more than one side. Obviously, it was problems in Philadelphia, 
and, of course, it was problems in Philadelphia for a very long 
time. But I agree that we should have interviewed you, and also 
pointed out the strength and weaknesses that existed in 
Philadelphia.
    I yield back.
    The Chairman. Thank you, the ranking member, and it was a 
closed-door meeting with employees, it was not a full hearing 
of this committee.
    Ms. Radewagen.
    Ms. Radewagen. Thank you, Mr. Chairman.
    My question is for Mr. Waller. As the current director of 
the Baltimore RO, what have been your employees' reactions to 
Secretary Hickey's position that the Baltimore RO director's 
job would, quote, ``Suck the last ounce of blood out of 
whomever took that job''? The source is the IG report, page 23, 
box 4.
    Mr. Waller. I would tell you, Congresswoman, that our 
employees at the Baltimore regional office, many of them 
extremely dedicated to service. Upon hearing the Under 
Secretary, or former Under Secretary's comments, there are a 
few that took it very disappointing. And that was certainly 
part of my conversation during a town hall upon returning back 
to the office to speak to the entire staff, and let them know 
that this information, or information that was being shared, 
would not define who they were as employees dedicated to 
serving veterans, and they needed to know that I was there to 
help lead them through this time of challenge and change as we 
move forward.
    Mrs. Radewagen. Thank you.
    Mr. Pummill, in your interview with the IG, you were quoted 
as saying that it may be time to come to Congress and say maybe 
it's time not to have an RO in every State. Can you explain 
that, please?
    Mr. Pummill. Yes, I can. I think we have come to the time 
in--with our automation and the systems that we have, where 
there needs to be a location in every State, maybe not one 
location, but multiple locations, where veterans can go to, 
like, a kiosk or a store front or something where they can go 
in, have a cup of coffee, get a glass of juice, say, How about 
my benefits? Where can I get medical care? I'm having a problem 
with my claim, and those kind of things. But generally, the 
claims can be done anywhere in the United States. And if we 
were to centralize them and bring them into different 
locations, we could put experts on different types of claims to 
do a better job with those claims.
    We're not there yet. It's a little bit out of context, my 
statement, because we still don't have enough automation where 
I would be comfortable not having claims representatives in 
every State representing the people in that State. But I think 
we're getting closer to that point where we need to start 
looking at what's the best bang for the taxpayers, how do we 
best use this national treasure to support veterans, and it may 
not be that we have a claims office, a large claims office, in 
every State. That's something we seriously have to look at.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman.
    You know, I have a list of questions that I would have 
liked to ask Ms. Rubens, Ms. Graves, if they were here. And one 
of those is that concerns that I have was this question, and I 
want to get this on record: Is there anything that you would 
like to say to apologize to the American veterans and taxpayers 
in regard to your alleged behavior that is outlined in this 
report? But unfortunately, well within their legal rights, they 
took the Fifth.
    Colonel Pummill, you have said that we've got to, and I 
agree, we've got to do something to bring back the VA and bring 
back the trust. But you're a colonel, and you had superiors you 
had to answer to. And if an underling of yours kept coming up 
and giving either false information or refused to give 
information, then you would be put in a situation that you 
would have to answer to your superiors. My superiors are the 
American taxpayers and the people of the 12th District. And 
since I've been on this committee, we have requested and then 
had to subpoena information. We have requested, and had to 
subpoena, now, people to come before us who should 
automatically come.
    But yet you agree that you--a while ago you made the 
statement you felt you should have probably come, but you had 
to answer to your superiors. Is that correct? Or were you 
advised not to come?
    Mr. Pummill. I was advised not to come, yes.
    Mr. Bost. You were advised not to come. Do you see why the 
American people, first off, they feel like they're being lied 
to? And one of our other members said that you're gaming the 
system. It's public perception that that's the case with the 
VA. Now I'm going to tell you, I've got a VA right in my 
district and one right on the edge of my district. And I 
believe that a majority of the people there are trying to 
provide the best possible service they can for our veterans.
    And let me also tell you that the American people don't 
trust the administration, and many people who are really out to 
serve themselves rather than those veterans. And can you give 
me the answer I'm supposed to give to them, those people that 
ask me, How do we straighten the VA out?
    Mr. Pummill. Congressman, I can't disagree with anything 
you said. All my friends are veterans, my brothers are all 
veterans, and every time I come home, they want to take me out 
behind the woodshed and beat me up because of how they perceive 
the VA as. I can tell you, VBA, we got a whole bunch of people 
that are dedicated, care about their job. They've been in 
mandatory overtime for the last 2 years. They're doing the 
right things.
    But as I told Chairman Miller before, that doesn't matter 
if the perception of the American people and the veterans is 
that we're not honest, we're not doing our job. I feel more 
confident now, than any other time that I've been with the VA. 
In the last 5 years, under the leadership of Secretary McDonald 
and Deputy Secretary Gibson, that we're going in the right 
direction. They're committed to holding people accountable. I 
don't want to play games. I want to take care of veterans. I 
don't want to say, you know, I'm not going to come to this 
subpoena, or I got to come to this stuff. I want to do the 
right thing.
    So, you know, somehow we've got to figure that out. I know 
my bosses agree. We have to stop this. We have to move forward. 
We have to take care of veterans. We're a bureaucracy. We're 
always going to make mistakes. We're never going to be perfect. 
Anybody that says we're perfect, that is not true. But how do 
we do best with the resources that we've got to take care of 
veterans? I got that.
    Mr. Bost. One thing, let me tell you, that I think you 
should do. Is when this committee, because we are supposed to 
be the voice of the people, ask you for information, come 
forthright quickly and give us the information necessary. We're 
not out to destroy you. We're out to help because we believe 
that the job you do is a very good job that should be done for 
the betterment of our veterans. We want to help you do that. 
But we can't do it if we're always look like that, Oh, no, 
let's keep that from them. Let's hide that from them. That's 
some advice that I would to give you this evening.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mrs. Halliday, this incentive package, not incentive, but, 
I guess, compensation to cover moving expenses, is that 
relegated to the Veterans Administration, or is that civil 
service-wide within the Federal Government?
    Ms. Halliday. It's a GSA contract that's available to all 
Federal agencies that choose to use it.
    Mr. Coffman. Okay. It just seems to me when I look at the 
VA where there's corruption, it's almost like there's always--
where there's corruption, there's money. And it's--that 
incentivized this behavior. This thing is so plussed up, and it 
needs to be reined in, this notion that someone could 
legitimately--now, what we're arguing here is that it wasn't 
legitimate because of the fact that they forced somebody out of 
a current position. But nobody's arguing that this $274,000--
really almost--around $274,000 met the standard, the criteria, 
which is outrageous, which is incredibly outrageous. So no 
wonder why people are doing what they're doing. And that we had 
discussed earlier that the relocation allowance for the most 
senior officer in the United States military is $4,514.29. 
That's for a four-star flag officer. Having been in the United 
States Marine Corps, that would be the commandant of the United 
States Marine Corps.
    And so we give these outsized incentives or compensation 
packages that are just outrageous. And then we wonder why 
there's not corruption tied to it when people force moves or 
force people to move out of their current position so they can 
move and collect these incredible amounts of money.
    Just like in the appointment wait time scandal, what fed 
the appointment wait time scandal was money, was the fact that 
you could earn a cash bonus by bringing down the wait times. 
Well, they just figured out, within this corrupt system called 
the Veterans Administration, that they could simply move 
veterans on to these secret wait lists and deny them health 
care and make it look like they were bringing the wait list 
down--the appointment wait time list down, and get those cash 
incentives.
    You know, Mr. Pummill, you are were a colonel in the United 
States military. Let me tell you, in the military, good people 
are promoted, bad people are demoted. And the only cash 
incentives there are, are part of retention pay. But when 
you're--when we recognize good behavior, people are promoted. 
In the VA system, we are throwing hundreds of millions of 
dollars a year in these cash bonuses, creating this corrupt 
system, this bureaucratically incompetent corrupt system.
    And let me tell you, there are good people in the Veterans 
Administration that fundamentally believe what they're doing 
and want to do a good job. And oftentimes, those are the people 
that come forward with, you know, with these incredible 
problems, and they make those problems public, and they bring 
them to us, and they are the people that are retaliated against 
by the leadership of the Veterans Administration. And I just 
think it's extraordinary.
    And I don't see the leadership from the White House. And I 
don't see the leadership from this current Secretary. He is 
merely a placeholder. Merely a placeholder. Everything's just 
trying to be swept under the carpet. It's only when the 
problems get so bad that there's public awareness, that action 
is reluctantly taken. Reluctantly taken.
    In the situation in Colorado, a hospital with over $1 
billion in cost overruns, nobody's been disciplined for it. 
Nobody's been disciplined for it. Unbelievably extraordinary. 
If these things happened in the United States military, you 
know that people would be court-martialed. You know that people 
would be relieved. And because in the military, your job is not 
a property right. And thank God. Thank God the United States 
military does not hold the values of leadership of the VA. If 
we can say one good thing tonight, Americans can feel safe in 
that knowledge. And now we've got to clean up the VA. But the 
President has to care, the Secretary has to care, and I don't 
see that.
    Mr. Chairman, I yield back.
    The Chairman. Thank you. I'm going to yield to Ms. Brown 
for some final questions, and then I'll close.
    Ms. Brown.
    Ms. Brown. Thank you.
    First of all, I agree that the President, the Secretary, 
and the Congress got to care. It's a team effort. It's one 
team, one fight. And I want to start by thanking all of you all 
for your service and your commitment.
    And Mr. Pummill, I have a couple of quick questions for 
you, but I do want to make one little statement to you. As you 
decide to centralize the benefit office, don't touch Florida. 
It's always down and to the right. And I know that that service 
is in St. Pete. We worked for years to get it straightened out. 
And I can tell you that me and Mr. Bilirakis, and the chairman, 
would be interested in--I don't care what you do about the rest 
of the country, but don't touch Florida, because we have so 
many veterans and we are finally getting the benefit office on 
track in Florida.
    Now, you were interrupted when you were beginning to give 
your thoughts on the number of benefits that you all offer. And 
someone said, Well, we don't care that, you know, we have 
problems with 14. But you were saying we serve how many. Can 
you finish your thoughts on that area? I want to give you a 
chance to tell your side of what we're doing. Because there is 
some good things that we're doing. We just need to be doing 
more.
    Mr. Pummill. Yes, Congresswoman. First of all, it would 
never be my decision to shut down any offices that--I could 
never make that call. I just gave my opinion.
    Ms. Brown. Yes, sir. I understand, but your opinion carries 
weight.
    Mr. Pummill. Just to put it in a nutshell, we did claims 
for 1.4 million veterans this year. That's more than we have 
ever done before. That's good, but we still need to do better. 
We are paying more money to more veterans faster with higher 
quality than we ever have before. But now we got to show the 
American people that our numbers are real and that there is 
honesty and truth behind those numbers. We have an incredible 
workforce at the VA that work really, really hard. We try hard 
to get the right people in the right place to do the right 
jobs.
    I really believe--I absolutely understood the comments 
about the military and how we work in the military. I believe 
that the Secretary and the dep sec have the best interests of 
VA and veterans at heart. They want change. They want 
accountability. They're pushing toward that. I'll back them as 
long as I'm in this position. It could be a day, it could be a 
year, I don't know. I'll stay until they don't need me. You 
have my commitment that I will hold the people in VBA 
accountable, and I will be accountable to this committee.
    Ms. Brown. Now, what was your comments about the two 
gentlemen to your right and to your left? You said that you 
think you got the best people in the position for those two 
complicated offices?
    Mr. Pummill. Yes, Congresswoman. A lot of people will say, 
Okay, you took Antione out of Minnesota----
    Ms. Brown. Nice place, but----
    Mr. Pummill. He was doing a great job there. The reason I 
took him out of there, or we took him out of there, was because 
he was doing a wonderful job. He got the organization squared 
away. He took care of the veterans there. He built a team. He 
got the union under control. He got the local community 
working. The VSOs working with him. They all respect him 
highly. Everything's going so well there, we knew we could put 
somebody else in. They can take care of it. We'll make sure 
that it doesn't drop. And now I'm going to take Antione's 
expertise and put someplace else that I need that has been a 
hole for years, and unfortunately he's so good, I'm going to 
use him to raise another position.
    Mac's got the same kind of skills. Mac's a leader. It comes 
across how he talks. We needed a leader in L.A. He's a leader. 
He's changing things in L.A. In a couple more years, whoever 
takes my place will be trying to move Mac someplace else 
because they have a leadership problem.
    Ms. Brown. I can tell that.
    Mac, I had one quick question for you. You mentioned that 
it was 23 or so that you did not agree with the IG's report. Do 
we have a copy of that? Or is that something that--I know I 
haven't seen it.
    Mr. McKenrick. Ma'am, it was the interim report that the IG 
put out. And I'm challenged in that most reports, they come to 
us with a draft and we go through it, and we lay out what we 
saw, what they saw, what happened on the ground. That didn't 
happen here. It was released through the--I guess, the press or 
to Congress first. And we itemized 24 discrepancies. Some were 
opinions that, you know, they thought this, we thought that. 
But we didn't have a chance to air that internally. And I want 
that relationship with the IG. I want to work with them and 
make it better for us. And I want the truth to come out, and 
for it to be accurate and all of VA to say, This is what it is, 
this is how we are getting at it, and this is where we're going 
to go with it.
    Ms. Brown. One last statement, or question. You mentioned 
that--and I want to figure out how we move forward and make it 
better. And part of the problem is that constant discussion of 
the appraiser value offer, or the AVO, that is not a VA 
program. That is a program that comes from my committee, 
Transportation. And it comes from the--and so it's an agency-
wide program. And if we need to change it, then we need to 
change it not just for VA, but for all of the 13 agencies. And 
I'm sorry that when you all move military people, that you all 
just give them $4,000. They are being cheated. Because clearly, 
if you got to sell your home and you got to relocate, it is a 
problem. But, of course, I think that the way that this program 
is set up, we really do need to take a look at it. Because we 
are--it seems as if they're paying too much. They're getting 
two appraisals. And I understand, California is different from 
Minnesota maybe. Nothing personal. But we do definitely need to 
look at the program and see how we can correct it or put some--
yes, sir. You wanted to respond to that?
    Mr. McKenrick. I think one of the things we're not talking 
about here is that the SES get their salary. And then there's 
what we call pay for performance. And I'm all about pay for 
performance. I studied it in graduate school, and that's the 
way to go in keeping the lines clear that it's true performance 
determines any bonus. But the military gets locality. They get 
adjustments based on--California is more expensive or Idaho or 
wherever you're at. The SES corps in America does not get that. 
You get your base salary, period.
    Ms. Brown. Yes. So those all of the facts that we need to 
consider as--and I really think that part of the problem that 
you all have hiring in the VA and relocating in the VA has 
something to do with the salaries and, of course, have 
something to do with Congress and how we dumb down and don't 
talk about the good things that you all do, that there are 
problems. We know that. But there are problems in every agency. 
There are problems in the Congress. And we just have to do the 
Army motto: One team, one fight. And we're all fighting for the 
veterans.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Thank you very much, Ms. Brown.
    Mr. Pummill, just to clarify for the record, the AVO 
program, is it suspended or is it cancelled?
    Mr. Pummill. It's suspended.
    The Chairman. Okay. Because that's not the direction that I 
actually got.
    Mr. Pummill. I believe it's suspended. I can check, and 
I'll call your office first thing tomorrow morning.
    The Chairman. If you would.
    Mr. Pummill. I believe it's suspended until it's 
completely--they look at everything, they check everything out, 
and they find, you know, whether or not we can use it and use 
it the proper way before they do anything with it.
    The Chairman. All right. Mr. McKenrick, I want to go back 
and confirm, is it your testimony that you never contacted the 
Secretary's Office in any way to express a desire to get back 
to Philadelphia or to the East Coast?
    Mr. McKenrick. That is correct. By the ``Secretary's 
Office,'' I do need to clarify that I did have a process with 
the chief of staff who is in the Secretary's Office. And I did 
respond to his letter with my preferences, and he did respond 
with a re-assignment.
    The Chairman. But after the re-assignment, you've never 
asked to come back?
    Mr. McKenrick. I did not.
    The Chairman. You have not. Okay. Thank you.
    Mr. McKenrick. I am committed to where I am, Chairman.
    The Chairman. And I can understand that. I think it's very 
apparent from your testimony tonight that you will go where 
you're told to go. I appreciate the diligence with which you 
approach your job.
    Mr. Waller, the exact same thing. To be sent to an office 
where an Under Secretary would say that the life blood would be 
sucked out of you if you went there, you know, that's a 
testimony in itself, that you'd be willing to go there.
    And, again, we thank you both.
    Mr. Waller, as I understand it, it's your testimony that 
you did feel pressured to make the move to Baltimore. Is that 
correct?
    Mr. Waller. That is correct, Chairman.
    The Chairman. And, Mr. McKenrick, you--it's been a little 
difficult tonight. You keep bringing up the directed move, but 
you basically were glad to go to L.A.?
    Mr. McKenrick. I'm glad to do this mission, Chairman. If it 
was Alaska, I'd be there. It's a commitment. I thank my 
children for being, you know, part of that selfless service. 
That's Army Corps values and the VA----
    The Chairman. And I think if you were given any mission, 
you would take that mission. Is that not correct?
    Mr. McKenrick. Clear, Chairman, if you're talking about a 
job here in the House, I'd think twice.
    The Chairman. Nobody's offering you a job in the House, 
sir. You need to stay right where you are in L.A.
    Ms. Halliday, I appreciate what the IG does. We've been 
crosswise before, the IG. And interestingly enough, Mr. 
McKenrick brought up a very interesting dichotomy where the VA 
Office of Inspector General goes back and forth and negotiates 
with the VA as to the final report. I don't understand how that 
process evolved, but obviously it has over the years. So I 
guess that's why it's very easy once the report comes out, the 
Department signs off with all the recommendations because they 
already knew what the recommendations were going to be before 
they got the copy of the report.
    I will say I appreciate the area now where you put into the 
report suggestions that have been made by the VA. I think it's 
important if you accept them or you don't accept them. I think 
that discussion is very important for us to have.
    Again, this hearing tonight was only held because people 
would not come to testify at the hearing that we held 2 weeks 
ago. I do not believe that, Mr. Waller or Mr. McKenrick, you 
would have not come had somebody said, Don't come. I think you 
would have been here. And we had to subpoena you in order to 
get you to come here. Mr. Pummill, you obviously were 
subpoenaed because Ms. Hickey left her position, and I suspect 
that we may invite her to appear before us at a later date.
    But with that, if there are no further questions, we are 
now in recess.
    [Whereupon, at 10:08 p.m., the committee was adjourned.]

                                APPENDIX

               Prepared Statement of Chairman Jeff Miller

    Good evening and thank you all for being here at tonight's hearing 
to discuss, for the second time, the VA Inspector General's final 
report entitled ``Inappropriate Use of Position and the Misuse of the 
Relocation Program and Incentives.''
    We are holding this second hearing, because the witnesses I 
requested to appear before this committee at the hearing on October 
21st chose not to attend or were blocked by VA from attending. Their 
failure to appear led us to unanimously vote on and issue subpoenas to 
compel their testimony, something we have never had to do before. The 
five individuals that we issued subpoenas to were Mr. Danny Pummill, 
Principal Deputy Under Secretary For Benefits; Ms. Diana Rubens, 
Director of the Philadelphia Regional Office; Ms. Kimberley Graves, 
Director of the St. Paul Regional Office; Mr. Robert Mckenrick, 
Director of the Los Angeles Regional Office; And Mr. Antione Waller, 
Director of the Baltimore Regional Office.
    As we learned at our last hearing, the IG's report lays out the 
alleged abuse of VA's relocation expense and permanent change of 
station programs costing hundreds of thousands of taxpayer dollars, and 
how Ms. Rubens and Ms. Graves inappropriately used their positions of 
authority to put their own ``personal and financial benefit'' ahead of 
veterans, taxpayers, and their subordinates.
    As the saying goes, a picture is worth a thousand words so let's 
bring up the map to describe, in the simplest terms, what tonight is 
about.
    [Map is put on screens]
    Initially, Ms. Graves and Mr. Waller discuss his potential transfer 
to Philadelphia. Those discussions are eventually shelved, because: Mr. 
Mckenrick is transferred from the Philadelphia RO director job to 
become the Los Angeles RO director. Then Ms. Rubens transfers from VA 
headquarters in D.C. to fill the now-vacant Philly RO director job and 
receives about $274,000 in relocation assistance. Mr. Waller is 
subsequently transferred from the St. Paul RO director job to become 
the Baltimore RO director. Ms. Graves then transfers from her position 
as the Eastern Area director in Philadelphia to fill the now-vacant St. 
Paul RO director job and receives about $129,000 in relocation 
assistance. Finally, both Ms. Rubens and Ms. Graves retained their SES 
level salaries despite assuming lower responsibility jobs.
    It seems that Ms. Rubens' and Ms. Graves' use of the relocation 
expense program is a confusing waste of money given that they 
volunteered for these positions. As my colleague, Mr. Coffman, pointed 
out at the first hearing on this report, their relocation expenses were 
exorbitantly more than even the highest ranking military officials 
receive when they and their families are moved. I am glad VA hit the 
pause button on this program. In my judgement, it ought to be scrapped 
altogether across government.
    The IG report sheds light on VA's policy of providing relocation 
expenses, and what I can only describe as gross and haphazard overuse 
of the program. It also details a scheme by which transferred SES 
employees received big pay raises and large incentives with very little 
connection to the relative responsibilities, complexities, and 
challenges associated with the new positions.
    The report is damning. And I believe it is important to go over the 
facts and the findings of the report, as well as afford our witnesses, 
who are at the center of the report, the opportunity to present their 
accounts of how events transpired. This is important both for our 
constitutional oversight duty and the department's transparency with 
the American people.
    After issuing the subpoenas on October 21st I received requests 
from representatives of some of the witnesses to postpone the hearing, 
or at the very least excuse Ms. Rubens and Ms. Graves from appearing 
today. I want to make it very clear that requiring these two 
individuals, or any individual, to appear before us today is not done 
to embarrass them, as some have asserted. They are here before us 
today, because they are the subjects of this damning report, which was 
completed at the committee's request. They are the two individuals who 
allegedly created openings in Philadelphia and St. Paul for their own 
transfers to these locations, and then also benefitted significantly 
from VA's relocation program to move to the openings they allegedly 
generated. If this is not what happened, then I believe a public 
hearing is an ideal place for them to tell us what did happen.
    This hearing is not a joke, and Ms. Rubens, despite what you 
reportedly told some of your employees, this is not a show. The 
findings of this report provide a roadmap for further inquiry and 
reform. My suspicion is that this kind of behavior is rampant not only 
throughout VA but also the rest of the government. VA must take 
aggressive steps to root it out, hold employees accountable when 
warranted, and be better stewards of taxpayers' money.
    As I have said before, if VA put half of the effort into pushing 
for true accountability or protecting their employees who come forth as 
whistleblowers as they have for the individuals investigated in this IG 
report, then I honestly think the department would be in a much better 
place. VA exists for veterans, not for itself or the unjust enrichment 
of its senior employees. That is why we take this IG report so 
seriously; that is why we are here tonight to ask the right questions; 
and that is why the public and America's veterans have a right to hear 
from these witnesses.
    With that I recognize the ranking member for any comments she may 
have.
    [Yield to Ranking Member Brown]
    Thank you.
    On our first and only panel we have the following individuals: Mr. 
Danny Pummill, Principal Deputy Under Secretary for Benefits; Ms. Diana 
Rubens, Director of the Philadelphia Regional Office; Mr. Robert 
Mckenrick, Director of the Los Angeles Regional Office; Ms. Kimberly 
Graves, Director of the St. Paul Regional Office; Mr. Antione Waller, 
Director of the Baltimore Regional Office; And Ms. Linda Halliday, 
Deputy Inspector General for the VA's Office of Inspector General. I 
also invited Former Under Secretary Hickey to testify tonight as a 
private citizen, as her activities were heavily featured in the report, 
however she did not respond to my requests.
    I ask the witnesses to please stand, and raise your right hand.
    Do you solemnly swear, under penalty of perjury, that the testimony 
you are about to provide is the truth, the whole truth, and nothing but 
the truth?
    Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    I now ask unanimous consent that the ranking member and I each have 
ten minutes for questioning.
    Hearing no objection, so ordered.
    If there are no further questions, you are all now excused.
    This hearing is now in recess.

                                 <F-dash>

           Prepared Statement of Ranking Member Corrine Brown

    Thank You Mr. Chairman.
    The Hearing this evening is a follow-up to the Committee's hearing 
nearly two weeks ago regarding the September VA Inspector General 
report on ``Inappropriate Use of Position and Misuse of Relocation 
Program and Incentives.''
    The IG report made a number of serious charges. As part of our 
oversight efforts, the Committee is looking into the use of relocation 
incentives as well as looking into the culture of the Veterans Benefits 
Administration.
    It is important that we get a better understanding of how VA uses 
relocation incentives to fill important positions, especially when we 
see a VA where many important leadership positions go unfilled. We must 
determine whether these programs work, and are working as intended. If 
they are not, then we must work together to make sure that they are 
used as a recruitment and retention tool, and not simply a means to 
reward specific employees when the usual tools of bonuses and pay 
increases are not available.
    To further our efforts in this area, the Chairman joined me in 
requesting that GAO look into the Appraised Value Offer, or AVO 
program, not only at VA but across the government. I look forward to 
their report in the very near future.
    The allegations in the IG report are serious, and highlight a 
culture of cronyism within the Veterans Benefits Administration. I hope 
our witnesses will be able to help us get to the bottom of this. We all 
respect the right of any of our witnesses to avail themselves of any 
Constitutional rights they have. But at the end of the day we simply 
must find answers and make the reforms and changes we need to make to 
ensure that veterans come first.
    Thank you, and I yield back the balance of my time.

                                 [all]
</pre></body></html>
